<html>
<title> - CYBERSECURITY: ASSESSING OUR VULNERABILITIES AND DEVELOPING AN EFFECTIVE RESPONSE</title>
<body><pre>[Senate Hearing 111-43]
[From the U.S. Government Publishing Office]



 
                                                         S. Hrg. 111-43
                      CYBERSECURITY: ASSESSING OUR
                     VULNERABILITIES AND DEVELOPING
                         AN EFFECTIVE RESPONSE

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 19, 2009

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation


       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION




                  U.S. GOVERNMENT PRINTING OFFICE
50-638                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office  Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, 
Washington, DC 20402-0001


                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

            JOHN D. ROCKEFELLER IV, West Virginia, Chairman
DANIEL K. INOUYE, Hawaii             KAY BAILEY HUTCHISON, Texas, 
JOHN F. KERRY, Massachusetts             Ranking
BYRON L. DORGAN, North Dakota        OLYMPIA J. SNOWE, Maine
BARBARA BOXER, California            JOHN ENSIGN, Nevada
BILL NELSON, Florida                 JIM DeMINT, South Carolina
MARIA CANTWELL, Washington           JOHN THUNE, South Dakota
FRANK R. LAUTENBERG, New Jersey      ROGER F. WICKER, Mississippi
MARK PRYOR, Arkansas                 JOHNNY ISAKSON, Georgia
CLAIRE McCASKILL, Missouri           DAVID VITTER, Louisiana
AMY KLOBUCHAR, Minnesota             SAM BROWNBACK, Kansas
TOM UDALL, New Mexico                MEL MARTINEZ, Florida
MARK WARNER, Virginia                MIKE JOHANNS, Nebraska
MARK BEGICH, Alaska
                    Ellen L. Doneski, Chief of Staff
                   James Reid, Deputy Chief of Staff
                   Bruce H. Andrews, General Counsel
   Christine D. Kurth, Republican Staff Director and General Counsel
                  Paul Nagle, Republican Chief Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 19, 2009...................................     1
Statement of Senator Rockefeller.................................     1
Statement of Senator Cantwell....................................     3
Statement of Senator Udall.......................................     3
Statement of Senator Nelson......................................    43

                               Witnesses

Dr. James A. Lewis, Director and Senior Fellow, Technology and 
  Public Policy Program, Center for Strategic and International 
  Studies........................................................     4
    Prepared statement...........................................     6
Dr. Joseph M. Weiss, Managing Partner, Applied Control Solutions.    10
    Prepared statement...........................................    12
Dr. Edward G. Amoroso, Senior Vice President and Chief Security 
  Officer, AT&T Inc..............................................    24
    Prepared statement...........................................    25
Dr. Eugene H. Spafford, Professor and Executive Director, Purdue 
  University Center For Education and Research in Information 
  Assurance and Security (CERIAS) and Chair of the U.S. Public 
  Policy Committee of the Association For Computing Machinery 
  (USACM)........................................................    28
    Prepared statement...........................................    30

                                Appendix

Response to written questions submitted to Hon. Olympia J. Snowe 
  by:............................................................
    Dr. James A. Lewis...........................................    49
    Dr. Joseph M. Weiss..........................................    51
    Dr. Edward G. Amoroso........................................    57
    Dr. Eugene H. Spafford.......................................    59


                     CYBERSECURITY: ASSESSING OUR


                     VULNERABILITIES AND DEVELOPING


                         AN EFFECTIVE RESPONSE

                              ----------                              


                        THURSDAY, MARCH 19, 2009

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:02 a.m. in 
Room SR-253, Russell Senate Office Building, Hon. John D. 
Rockefeller IV, Chairman of the Committee, presiding.

       OPENING STATEMENT OF HON. JOHN D. ROCKEFELLER IV, 
                U.S. SENATOR FROM WEST VIRGINIA

    The Chairman. Good morning, everyone. We have a full quorum 
present, so we're able to start this hearing.
    Good morning, Senator Cantwell.
    It's interesting to me, there are 10,000 other Committees 
meeting, and I hope the witnesses understand that. Nobody ever 
said we were a sane institution, but we prove it, particularly 
in the early times, like this, when we're trying to confirm 
people, and there are too many hearings, and people have to run 
back and forth, and we've got four votes sometime this morning. 
Anyway, I'm very glad that you're all here.
    I was Chairman of the Intelligence Committee, so I'm 
familiar with the Nation's cybersecurity threats and 
vulnerabilities. And what I'd like to say is, very powerful, at 
least to me. In the last 2 years; under two administrations, 
two Directors of National Intelligence, before an open world-
threats hearing, which is an annual event in which all the 
Intelligence Committees sort of bring their work together, Mike 
McConnell, under President Bush, and Admiral Blair, under 
President Obama, both said that the number-one security threat 
to the United States of America was cybersecurity, or 
cyberterror, however you want to phrase it. I regard it as a 
profoundly and deeply troubling problem to which we are not 
paying much attention. We have jurisdiction--part jurisdiction 
in this committee. As do others, obviously. This is not going 
to be the last of our hearings on this subject; we're going to 
pursue this subject further.
    The problem is, America is unacceptably exposed to massive 
cybercrime, global espionage, and potential cyberattacks that 
would very easily cripple our infrastructures. Anyone, 
anywhere, can launch a cyberattack, for as long as the Internet 
or other like instruments exist.
    We currently have in place very sophisticated systems to 
protect against cyber espionage, but it's very important for 
people to know that cybersecurity is not just about protecting 
our government networks from countries, terrorists, or hackers 
who want our secrets. It's about protecting our Nation's 
critical infrastructure from cyberattacks that could severely 
impact commerce and the economy in absolutely devastating ways. 
People just don't stop to think about it, don't know about it, 
don't care about it, don't know what the word means.
    For example, private-sector IT systems control virtually 
all of this critical infrastructure; traffic lights, rail 
networks. It would be very easy to make train switches so that 
two trains collide, affect or disrupt water and electricity, or 
release water from dams, where the computers are involved. How 
our money moves, they could stop that. Any part of the country, 
all of the country is vulnerable. How the Internet and 
telephone communication systems work, attackers could handle 
that rather easily. If healthcare reform is successful, this is 
something which is just mind-boggling to me, IT systems will 
play a critical role in the future of healthcare and will be at 
risk as well. They can take an IT system and do what they want 
with it. I'm not sure if they can change prescriptions that 
doctors prescribe, but I think they can. I know that they can 
send you to the wrong doctor or cancel your appointments. 
Attackers can just take things that we do on a common everyday 
basis, and could wreak havoc, and get into the minds of the 
American people.
    I've always believed that, with all the tragedy of 9/11, 
that Al Qaeda does not necessarily exist just to bring down 
tall buildings, but to get into the minds of the American 
people and to bring them to their knees out of fear as a result 
of something happening in a small place, or it was prosaic 
event, but it was crushing and people panic. When Americans 
panic, not very good things happen.
    So, we need to get private-sector leaders and government 
authorities on the same page on this enormous threat. We cannot 
do this soon enough. We need a coordinated public-private 
response. Currently, this does not exist.
    President Obama talked about having a cybersecurity 
advisor. That has not happened.
    In broader terms, I think that the homeland security part. 
This is sort of strange to say, but here we are, fighting in 
Iraq and Afghanistan, and potentially in other places, 
disruption is with us for years and years to come, and the wars 
aren't the point. These cyberattacks can come from anywhere. We 
tend to say, ``Well, what country do they come from?'' And 
people say, ``Well, it's China.'' They say, ``It's Russia.'' 
Estonia and Latvia both had their power systems shut down. 
Attackers can disrupt systems for a very short time, they don't 
have to do it for a week, they could do it for a day and a 
Nation or a country goes into panic.
    The point is that anybody, some kid in Malawi, some kid in 
the southern tip of Chile who's just mad, can do this. They can 
and have figured out how to do it. We see regularly on 
television the TV ad that the Department of Defense is being 
hacked into, 3 million times a day. My honest assessment is 
that most Americans see that, don't believe it. The number is 
too big, and, ``Oh, by the way, it's the Department of Defense, 
it's not me,'' is the sort of response that goes on.
    There's this monumental disconnect between the American 
people in many cases, the private sector, and protecting 
ourselves. Being aware of, getting ready for, being ready to 
respond to cyberattacks.
    How's a small business going to do this? How are they going 
to know about it? How are they going to afford to figure out 
what to do? The bigger businesses are pretty good at it, but 
there are a lot of bigger businesses that aren't very good at 
it at all. Because the times are rough, and they figure there 
are other things to do and it won't happen to them, which is 
they classic American psyche, anyway.
    I just want to put myself down as somebody who is very 
concerned and is determined to make a difference in this 
Committee on this subject. I've pushed for a national security 
advisor who reports directly to the President, who would 
coordinate such an interagency and public-private effort. How 
do you do that? Well, you've got to have backup groups, 
advisory groups. And we'll have to do that.
    This is not just about providing a new powerful government 
official, a tsar or anything like that, it's about transforming 
the way the government, private sector, and the American people 
tackle something called cyberterrorism, cyberattacks, as a 
problem, and do it together.
    I went over my time, Senator Cantwell, and I apologize, as 
I do to you, Senator Udall.

               STATEMENT OF HON. MARIA CANTWELL, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Thank you, Mr. Chairman. And thank you 
for holding this important hearing. I know that your passion 
and understanding of these issues comes, not just form this 
Committee, but your former chairmanship of the Intelligence 
Committee, so we appreciate you calling together such a 
distinguished group of witnesses. I look forward to hearing 
their discussion, particularly from Dr. Lewis and Dr. Weiss, 
about the electricity grid and the security issues related to 
the electricity grid, and how we move forward with technology 
that can help us, both on efficiency and security. So, I look 
forward to those comments.
    I look forward to your continued leadership, Mr. Chairman, 
on this issue with this Committee, from the perspective of 
continuing to move forward on technology, but to make sure that 
security concerns are addressed.
    And so, I'll stop with that and have questions for the 
witnesses, but thank you, again, for holding this important 
hearing.
    The Chairman. Thank you very much.
    Senator Udall?

                 STATEMENT OF HON. TOM UDALL, 
                  U.S. SENATOR FROM NEW MEXICO

    Senator Udall. Thank you very much, Chairman Rockefeller. 
I, also, want to echo what Senator Cantwell said. I think we're 
very lucky to have you as Chairman, and this expertise that 
you've developed over time as chairman of the Intelligence 
Committee, I think, is going to be shown here today. It's an 
honor to be here and be serving with you. Thank you for your 
dedication.
    I come from a State that has two great national 
laboratories: Los Alamos National Laboratory and Sandia 
National Laboratories. They work somewhat in both of these 
areas. So, as you proceed with your testimony addressing these 
very important issues, I'm going to be asking about the kinds 
of research you think should be done, either in national 
laboratories or at academic institutions. It seems to me, at 
least from what I've learned, talking with our chairman, is 
that we really need to be ahead of the curve, we need to be out 
in front of this. Where is it that we generate the new 
knowledge and getting out on the cutting edge? So, that's going 
to be one of the things that I talk about.
    I also know that there has been some suggestion in your 
testimony that we collaborate with other countries. And yet, 
there are dangers in collaborating, and I think, with several 
of you, I would like to explore that interaction that's there, 
because clearly it--from my travels, anyway, countries insist 
that we collaborate, but, at the same time, I know that there 
are serious issues also facing that particular area.
    So, thank you very much for being here, and I'm going to 
shorten my statement and make sure that we get, Chairman 
Rockefeller, quickly to the witnesses.
    The Chairman. Good. Incidentally, this is not an 
Intelligence hearing, this is a Commerce Committee hearing. 
Every single thing that we're going to talk about here has to 
do with commerce.
    We have a very distinguished panel. We have Dr. James 
Lewis, Director and Senior Fellow of the Technology/Policy 
Program with the CSIS, which I don't have to spell out; Dr. 
Joseph Weiss, Managing Partner for Applied Control Solutions; 
Dr. Ed Amoroso, who is Chief Security Officer at AT&T, they 
know something about this. He'll discuss cybersecurity from a 
network operator's perspective. And Dr. Eugene Spafford, 
Professor and Executive Director of the Purdue University, 
Centers Education and Research and Information Assurance and 
Security. That's a heck of a letterhead.
    [Laughter.]
    The Chairman. Dr. Lewis?

 STATEMENT OF DR. JAMES A. LEWIS, DIRECTOR AND SENIOR FELLOW, 
TECHNOLOGY AND PUBLIC POLICY PROGRAM, CENTER FOR STRATEGIC AND 
                     INTERNATIONAL STUDIES

    Dr. Lewis. Thank you, Mr. Chairman. And I thank the 
Committee----
    The Chairman. Yes, it should be sort of an orange.
    Dr. Lewis. OK, I guess it's on. Well, that was a good 
start.
    Thank you. And I thank the Committee. Your opening remarks 
were, I think, exactly on target.
    The nature of our dependency on cyberspace is not always 
recognized, although I have to say you've recognized it. We 
tend to think of it is a military or homeland security problem, 
but the primary vulnerability in cyberspace is economic.
    In the 1990s, there was a debate over the value of 
information technology, and some people said, ``We're spending 
all this money, and we don't see any return.'' By the end of 
the 1990s, the debate was over. There was conclusive evidence 
that information technology spurred growth.
    Why was there a delay? The delay was because there was a 
lag between the time people bought it and the time they figured 
out how to use it, how to apply it in new ways, how to 
reorganize.
    Just as companies had to change how they operated and were 
organized, we must now change the Federal Government. It's no 
surprise that adjustment takes time, but in this case, the 
problem is compounded by the nature of the technology.
    The Internet was designed to provide survivable 
communications based on rapid and easy connectivity. It's 
optimized for easy connection. It's built on implicit trust. It 
has changed the world, but it is deeply flawed. That flaw is 
security.
    As the Internet is now configured and governed, it cannot 
be secured. Right now, the attackers have the advantage in 
cyberspace. As a Nation, we have not brought the full power of 
the Federal Government to overcome this advantage.
    Now, on the bright side, the U.S. has done more than other 
countries when it comes to cybersecurity. There has been much 
progress in the last 2 years compared to the previous decade. 
And the Obama Administration has identified cybersecurity as an 
important issue for national security.
    But, while the United States has done more than other 
countries, we also have more to lose. The risk is not what some 
cybersecurity proponents would tell you. We're not talking 
about explosions or mad hackers or bringing the U.S. to its 
knees in a few hours. The real risk lies in the long-term 
damage to our economic competitiveness and our technological 
leadership.
    Cyberconflict can disrupt key services, as you mentioned, 
as in the case of an opponent who can access control systems. 
I'm sure we'll hear more about that today. But, the real and 
immediate damage comes from the theft of intellectual property 
and the loss of advanced commercial and military technologies 
to foreign competitors.
    Cyberconflict is well suited to providing a competitive 
edge to other nations. In this competition we are in now, 
economic strength, technological leadership, and the ability to 
innovate is as important as military force for national power. 
A failure to secure America's information infrastructure 
weakens the United States and makes our competitors stronger.
    Changing this requires two sets of actions. The first is to 
strengthen our national ability to innovate; the more 
innovative nation is more secure. The second is to secure the 
networks upon which we rely.
    Let me give you two examples, quickly, of the connection 
between cybersecurity and the economy:
    The stimulus bill provides a significant increase in funds 
for research. This will improve U.S. competitiveness. But, if 
that research is conducted over insecure networks, we are 
subsidizing, not only our own industry, but foreign industry, 
as well.
    The Smart Grid that is also in the stimulus bill makes 
innovative use of advanced technologies to address energy 
problems, but if the Smart Grid is not secure, it can be hacked 
and used to disrupt the delivery of electricity.
    In the past, we've viewed cybersecurity as a technical 
problem. This was a mistake. Cybersecurity requires using all 
the tools of U.S. power--diplomatic, military, intelligence, 
enforcement--law enforcement and economic policy. CSIS put out 
a report in 2008 that laid out a comprehensive strategy. But, 
more than a comprehensive, a strategy will also need to be 
coordinated.
    Cybersecurity requires actions by many agencies, and our 
current efforts are not sufficiently coordinated to provide 
advantage, although the Obama Administration's 60-day review 
may change this.
    Congress can focus Federal efforts on the economic risk, 
and it can ensure that regulatory efforts by agencies give full 
weight to cybersecurity, something that is not now the case. It 
can ensure that the Department of Commerce, which has a key 
role in this, makes cybersecurity a priority.
    Finally, Congress can tackle the daunting task of 
modernizing our legal authorities, many of which were written 
for technologies that were in use decades ago.
    My testimony has discussed how information technology has 
brought great benefits, but that these are accompanied by 
unavoidable risks. We have an opportunity to secure cyberspace 
and use it to renew economic growth, create more efficient 
government, and build stronger national security. These are 
attainable goals, and the Nation that finds new ways to use 
cyberspace securely will gain competitive advantage.
    I thank the Committee for its attention, and I'll be happy 
to take any questions.
    [The prepared statement of Dr. Lewis follows:]

 Prepared Statement of Dr. James A. Lewis, Director and Senior Fellow, 
    Technology and Public Policy Program, Center for Strategic and 
                         International Studies
    I thank the Committee for the opportunity to testify on 
vulnerabilities and effective defense in cyberspace. As America's 
dependence on cyberspace grows, and as the scale and pace of conflict 
in this new venue increases, the need to rethink national strategies 
has become urgent. The free and secure use of cyberspace has become, 
like freedom of the seas, a vital national interest for the United 
States. This Committee can play an important role in developing and 
guiding an adequate national approach to securing cyberspace.
    The nature of our dependence on the use of cyberspace is not always 
recognized. We tend to think of cybersecurity in military terms, or as 
a problem of homeland security, but this is inadequate for 
understanding the scope of the problem. Networked, digital information 
technology provides the infrastructure for news ways to organize, 
interact and create wealth--actions that can now take place in 
cyberspace. Information technology lies at the center of an immense and 
ongoing transformation in the global economy, in politics and society, 
and in military affairs. It has transformed how people work, altering 
business models, supply chains, customer interactions and production. 
The use of cyberspace has become a central element in both economic and 
national security.
    You may recall that in the early 1990s, there was a debate over the 
value of investing in information technology. Some economists noted 
that American companies had spent millions of dollars on information 
technology without any noticeable gains in productivity. The promise of 
information technology, they asserted, was a mirage. The excesses and 
rhetoric of the dot.com bubble only contributed to this perception.
    But by the end of the 1990s, this debate was over. There was 
conclusive evidence that spending on information technology brought 
economic benefit. Information technology made a significant 
contribution to American GDP growth--perhaps as much as a third of 
total GDP growth. It turned out there was a lag, a delay between 
spending on IT and the increase in growth. The reasons for this delay 
were that companies had to figure out how to change their organizations 
and their business practices to take advantage of the new and more 
efficient processes enabled by IT. New technology layered over old 
organizations does not provide much benefit.
    We can draw two conclusions from this story. First, we are barely 
into our second decade when it comes to exploiting the advantages that 
digital network technologies provide. If this story was about cars, we 
have moved from the Model T, introduced in 1908, to the Model A, which 
appeared in 1927. This is progress, to be sure, but we are only at the 
beginning of the story. We have not exploited the full potential of the 
new technology for recovery and for future growth.
    Second, just as there was a lag as companies took time to adjust 
how they operated and were organized to make use of the new 
technologies, we are facing a lag in adjusting law, regulation and 
policy. To continue the car analogy, if the economy as a whole is 
moving toward the Model A, the Federal Government is still comfortable 
driving a Model T. The difficult task of modernizing the Federal 
Government will challenge both the administration and the Congress.
    A common element links both business and governmental stories 
together. That element is security. It is no surprise that a new 
technology that has immense economic and political effect requires 
adjusting our security policies, and that we have lagged in doing so, 
but in this case, the problem is compounded by the nature of the 
technology itself.
    The story of the Internet is well known. It was designed to provide 
survivable communications based on rapid and easy connectivity across a 
nation-spanning network. Its initial users were scientists and military 
officials, small communities that knew and could trust each other. The 
Internet is an open network optimized for easy connection and built on 
implicit trust. It has changed the world, but it is also deeply flawed. 
That flaw is security.
    The Internet as it is currently configured and governed cannot be 
fully secured. Changing this to gain the further advantages offered by 
information technology will require a restructuring of governance, 
practices and standards. Right now, however, the advantage lies with 
the attacker. This has been apparent for years, but as a nation, we 
have not brought the full power of the Federal Government to bear on 
the problem, and what power we did bring was applied in a fragmented 
and incoherent manner.
    This is a harsh statement, and if it is any consolation to the 
Committee, the United States has done a better job than any other 
country in cybersecurity. The last twelve months have seen more 
progress toward securing cyberspace than any previous year. More 
importantly, the Obama Administration has identified cybersecurity as 
one of the most important issues for national security and has begun to 
move forward.
    However, we should bear in mind that while the United States has 
done more than other nations in terms of security, this is in no way 
adequate. One reason for this can be termed asymmetric vulnerability. 
We have more to lose than our opponents do. We are more reliant on 
information technology and networks and it is a greater source of our 
comparative advantage in economic competition and in national security. 
As a nation, we have been quicker to take advantage of the Internet and 
offer a ``target-rich'' environment to our opponents, who currently 
rely on it less.
    Over time, this will change. No country can ignore the benefits of 
digital networks if it wishes its economy to be competitive, its 
researchers effective and its nation to be secure. In the interim, 
however, the United States is at greater risk than any other country. 
The risk is not what some cybersecurity proponents would have you 
believe. We are not talking about explosions, mad hackers, fatalities, 
or bringing the United States to its knees in a few hours. These claims 
are best left to Hollywood--entertaining, but a poor guide for policy. 
The real risk lies in the long-term informational damage to our 
economic competitiveness and technological leadership.
    Our primary opponents in cyberspace--and we are already in a 
conflict even if it often takes place largely outside of public view--
are nation-states and organized criminals (who sometimes work at the 
behest of nation state). Cyber conflict involves illicit action to 
penetrate computer networks. These penetrations may provide an opponent 
the capability to disrupt the delivery of key services, as in the case 
of an opponent who surreptitiously accesses the control system of a 
critical utility or network. This potential threat is one that we need 
to guard against. The real and immediate threat from conflict in 
cyberspace, however, is illicit action to obtain access to sensitive 
information--in other words, espionage and theft.
    That cyber incidents are not comparable to attacks involving the 
use of force does not mean that they are not damaging. Clearly, there 
are potential military advantages that come from greater knowledge of 
an opponent's intentions and capabilities, access to critical military 
technologies, and the ability to disrupt and slow decision-making by 
introducing uncertainty provides immediate advantage. Action in 
cyberspace has become part of modern warfare.
    More importantly, cyber conflict is well suited to producing 
national advantage in the new kinds of competition that will shape 
international relations in the future. In this competition, military 
forces are only one source of power. Economic strength, technological 
leadership and the ability to innovate will be as important as military 
force in creating national power, particularly in competition with the 
rising nations who wish to reduce U.S. influence without resorting to 
open military conflict. The primary damage to U.S. national security 
and economic strength from poor cybersecurity comes from the theft of 
intellectual property and the loss of advanced commercial and military 
technology to foreign competitors. A failure to secure America's 
information infrastructure weakens the United States and makes our 
competitors stronger.
    2007 was perhaps the worst year for the United States when it comes 
to cybersecurity--it may have been the long-awaited Electronic Pearl 
Harbor, despite the lack of explosions or casualties. The Secretary of 
Defense's unclassified e-mail was hacked. The Department of Commerce's 
bureau for high tech trade had to go off-line after its networks were 
penetrated. Foreign entities penetrated the networks of the Departments 
of State and Energy, NASA and other Federal agencies, along with 
networks at Federal contractors, the defense industry and major 
companies. It is interesting to note that in the same period the 
governments of the United Kingdom, France and Germany also experienced 
major cyber incidents, which they attributed to China.
    In response, the Bush Administration created the Comprehensive 
National Cybersecurity Initiative (CNCI). While the initiative made 
progress in securing Federal networks, the CNCI had major drawbacks. It 
started too late, in the last year of the Bush Administration. It was 
over-classified. Most importantly, despite its name, the Comprehensive 
National Cybersecurity initiative was not comprehensive. The CNCI 
focused on government networks, and while this is important, it is 
inadequate. Cyberspace is a global commercial network. The CNCI did not 
have an international component, it did not adequately address how to 
secure critical infrastructure, and it ignored the ``dot.com'' space 
where most commercial activity takes place. These were serious 
shortcomings, and they point to crucial areas for work for the new 
Administration.
    Despite the CNCI, intense economic espionage made possible by the 
Internet is eroding America's technological leadership and economic 
strength. Repairing this situation requires two interrelated sets of 
actions. The first is to strengthen our national ability to innovate. 
Innovation is the process of coming up with news ideas, goods, and 
services. It has become a central element in economic competition. A 
more innovative nation will be stronger and more secure as it will have 
a stronger economy and better technology. A purely defensive strategy 
will not succeed. The second set of actions is to secure the networks 
upon which we rely for commerce, innovation and security. Two examples 
help demonstrate how these actions are related.
    There is a strong connection between innovation and information 
technology. Information technology lowers the cost of acquiring 
information and creating new knowledge. It extends human capabilities 
to count and observe. Digitizing knowledge and research increased the 
productivity of the innovative efforts. Recognizing that research is a 
fundamental source of innovation, the recent stimulus bill provided a 
significant increase in funding for research in the hopes that this 
would increase innovation in the United States and with it, growth and 
competitiveness. This is a good idea, but there is one important caveat 
to bear in mind. Much of the new information created by the additional 
funding for research will be stored in computer databases. These 
databases are usually networked and connected to the Internet. That 
means they are vulnerable to penetration and the information stored on 
them accessible by others. The end result, if we do not improve 
cybersecurity, is that new Federal funding to increase research and 
innovation will be a subsidy to foreign industry as much as our own.
    Another stimulus-related problem involves an infrastructure 
project, the Smart Grid. Smart Grid makes innovative use of advanced 
meters to better manage the flow of electricity. These new meters use 
computer technologies to make our national electrical network more 
efficient. Unfortunately, if the new ``smart'' meters are not secure, 
they can be ``hacked,'' taken over by attackers, and used to disrupt 
the delivery of electricity. If the Smart Grid is built to existing 
standards, however, it will not be secure. Worse, the United States 
does not have a process that could deliver in a timely fashion the new 
standards needed to guide the construction of secure Smart Grids. Years 
of under-investment in infrastructure have put us in this unfortunate 
situation.
    These two examples show how recovery and growth, innovation and 
cybersecurity are intertwined. In the past, we viewed cybersecurity as 
a problem somehow separate from larger national issues, something that 
could be safely ignored or left for consideration by technical experts. 
This is no longer the case. Since the information infrastructure is now 
a central pillar of our economy and since the untrammeled use of 
cyberspace is crucial for economic and military security, we cannot 
ignore it nor can we approach it as a technical problem. An effective 
policy for this complicated strategic problem will engage many 
different elements of the American government and requires using all 
the tools of U.S. national power--diplomatic, military, intelligence, 
law enforcement and economic policy. A national strategy that does not 
take a comprehensive approach will fail--we have learned the hard way, 
this from the experience of our previous national efforts, in 1998, 
2003, and 2007.
    CSIS established a Commission of recognized experts in 2007 to look 
at what actions the Federal Government could take to improve 
cybersecurity. The Commission released its report in December 2008. The 
report laid out the elements of a comprehensive strategy. This 
recommended strategy called for better integration of offensive and 
defensive capabilities to create new modes of deterrence. It 
recommended expanded international engagement to establish norms and 
partnerships for securing cyberspace. It concluded that a voluntary, 
industry led approach to national security was insufficient and 
concluded that the Federal Government must require mandatory action to 
improve cybersecurity. It called for improving our ability to 
authenticate digital identities. Finally, the report determined that 
the United States needs a coherent and comprehensive organizational and 
policy framework to secure cyberspace.
    Reorganizing government and adopting new practices to enable and 
secure the use of cyberspace is one of the most difficult tasks in this 
comprehensive approach. The United States will require a coordinated 
effort by many agencies. We do not currently have a mechanism to do 
this, although the sixty-day review of cybersecurity policy the Obama 
administration is undertaking may provide one. None of the problems we 
face in cyberspace are unsolvable, but they require a comprehensive 
approach that has not been used in the past. In the litany of errors 
and omissions that accompanies any account of previous U.S. 
cybersecurity policies, the failure to seek broad international 
engagement or to use the regulatory powers of the Federal Government 
head the list (along with disorganization and diffusion of effort). You 
have an opportunity to change this, working with the Executive Branch 
and the private sector.
    One important contribution that Congress can make is to ensure that 
a national approach to securing cyberspace is forward looking. Congress 
can focus Federal efforts on the importance of the economic and 
commercial aspects of cybersecurity, and ensure that the regulatory 
efforts of important agencies like the Federal Communications 
Commission give full weight to cybersecurity--something that is not now 
the case. It can ensure that elements of the Department of Commerce 
which have crucial roles in securing cyberspace--the National Institute 
of Standards and Technology and the National Telecommunications and 
Information Administration--make security a priority. Finally, one of 
the most daunting tasks before Congress lies in modernizing the range 
of legal authorities concerning privacy, security, infrastructure 
protection and the management of digital identities, many of which were 
written decades ago for simpler technologies and times.
    In considering these issues, it is worth recalling that the United 
States has used a market-led approach to cybersecurity for more than a 
decade. It has failed us. The CSIS Commission report concluded that 
market forces alone would not provide adequate national security. This 
is a major departure from previous thinking, which tended to approach 
the question of regulation timidly and to defer to business interests 
on matters of national security. Badly designed regulation is a 
hindrance but no regulation in situations where there is market failure 
is even worse. The CSIS Commission proposed a new regulatory approach 
based on standards and an avoidance of prescriptive rules. The 
Commission's recommendation is to begin with regulation for critical 
infrastructure--if infrastructure is truly critical, we should not be 
shy about mandating action to secure it.
    My testimony has attempted to show that information technology has 
brought great benefits, but that these are accompanied by unavoidable 
(albeit smaller) costs that we have not done well in managing. Our goal 
is to take the open network we have inherited and sufficiently secure 
it to provide renewed economic growth, more efficient government, and 
stronger national security. These are attainable goals, and the Nation 
that finds new ways to use cyberspace securely will gain competitive 
advantage. With a unified and forward-looking effort, that nation can 
be the United States.
    I thank the Committee for the opportunity to testify and will be 
happy to take any questions.

    The Chairman. Thank you very much, Dr. Lewis.
    Dr. Weiss is next.

  STATEMENT OF DR. JOSEPH M. WEISS, MANAGING PARTNER, APPLIED 
                       CONTROL SOLUTIONS

    Dr. Weiss. Good morning, Mr. Chairman and Members of the 
Committee. I would like to thank the Committee for your 
commitment to a comprehensive examination of the cybersecurity 
of control systems utilized in our Nation's industrial 
infrastructure, and what can be done to secure them. I also 
want to thank you for the opportunity to be here today to 
discuss this very important topic.
    And I'd like to make one other point. What I think is more 
important is not so much cybersecurity, but critical 
infrastructure protection; whether the computer is working, we 
need to make sure the system and the processes work.
    I am a nuclear engineer that has been involved in control 
systems for over 35 years, and control-system cybersecurity 
since 2000. My focus has been on developing an understanding of 
the complex technical and administrative issues associated with 
cybersecurity of control systems and how they are different 
than for corresponding business information-technology systems.
    I've also been working with government organizations, end 
users, equipment suppliers, domestic and international 
standards organizations, national laboratories, including 
Sandia and Los Alamos, and others, to develop standards and 
solutions.
    The convergence of mainstream IT and control systems 
requires both IT and control-system expertise, which is why I'm 
so glad you've invited me, so we can have a seat at the table.
    One should view current control-system cybersecurity as 
where mainstream IT was 15 years ago. It is in the formative 
stage and needs support to leapfrog the previous IT learning 
curve.
    Control systems are a system of systems. While sharing 
basic constructs with IT systems, control systems are 
technologically, administratively, and functionally different 
than IT, and this will have a significant effect on the Smart 
Grid.
    Vulnerability disclosure philosophies are different, and 
can have devastating consequences to critical infrastructure. A 
major concern is that there are very few control-system 
cyberexperts. I believe, less than 100--with no formal 
university curriculum----
    The Chairman. Could you repeat that, the first----
    Dr. Weiss. Yes.
    The Chairman.--part of the sentence?
    Dr. Weiss. I believe there are less than 100 people 
worldwide who truly know and understand control-system 
cybersecurity. And I can elaborate more, if you like.
    The Chairman. No.
    Dr. Weiss. And one of the things we do not have is any 
formal university curricula. We also have no certifications. I 
happen to have a professional engineering license. There are no 
questions whatsoever on security. The CISSP has no questions 
dealing with control systems. We're in the cracks.
    And what's more, the lack of control-system security 
expertise extends into the government arena, which is focused 
on repackaging IT solutions that don't address the actual 
control-system cyberevents that have occurred to date.
    The issue at hand is the protection of the interdependent 
critical infrastructures of electric power, water, oil, gas, et 
cetera. In fact, before I came here, the Federal Aviation 
Administration asked me to stop by and talk to them.
    Control systems form the backbone of these infrastructures, 
and the threat of a cyberattack is the central issue. I believe 
the threat is increasing, not only because of nation-state 
threat, which is probably what you're used to, but because the 
economic downturn has created many disgruntled, but 
knowledgeable, antagonists. Examples of this are the wireless 
hack in Australia in 2000, where a sewage discharge valve was 
opened. A disgruntled employee for a federally owned canal 
system in California installed software that damaged a computer 
used to divert water out of a local river. And literally in 
yesterday's newspaper, in L.A. they indicted a disgruntled 
engineering technician who disabled the leak-detection system 
for three oil derricks off the coast of Southern California. 
This was yesterday.
    There are only a handful of control-system suppliers, and 
they supply applications worldwide. The control systems 
architectures and default passwords are common to each vendor. 
Consequently, if one industry is vulnerable, they all could be.
    The result of a coordinated cyberattack on any or some 
combination of the critical infrastructures could be 
devastating to the U.S. economy and security. We're talking 
months to recover. We're not talking days.
    It's an international problem, as North American control-
system suppliers provide systems globally, and non-North 
American suppliers provide systems to North America. A number 
of suppliers have source code development activities in 
countries with dubious credentials.
    The concern is real. There have been more than 125 control-
system cyberincidents I've been able to document, and they've 
occurred in electric power, in transmission distribution, power 
generation, including fossil, hydro, gas turbine, and nuclear 
plants. They've also occurred in water, oil, gas, chemicals, 
paper, and agribusiness. The impacts have ranged from trivial 
to significant environmental damage to significant equipment 
damage to deaths. We've already had a cyberincident in the 
United States that has killed people.
    The following recommendations provide steps to improve the 
security and reliability of these critical systems:
    First, understand the unique control-system cybersecurity 
issues against all threats, intentional and unintentional. And 
part of that also includes, not just the threats you'd think 
of, we're also talking about things like EMP, electromagnetic 
pulse, and other types of events. These have actually affected 
control systems already.
    Another one that may sound trivial but is terribly 
important, and that's, How much is--how much security is enough 
security? We don't know. We need to develop control-system 
unique solutions, policies, and training based on actually 
control-system cyberincidents. We have not yet connected the 
dots, and we're starting to see similar events in similar 
locations.
    And for control systems, the U.S. CERT and the ISACs, you 
know, the Information Sharing and Analysis Centers, do not work 
for information sharing on control systems. We need an 
information-sharing mechanism staffed by vetted control-system 
experts. And I use the word ``vetted'' because, in the 
commercial world, having a clearance doesn't help, and often 
can hurt. It's very different. And we do need regulation. And I 
can tell you what I believe the regulation should be, and 
especially since you're Commerce.
    The Chairman. You mean ``vetted'' is dangerous because 
that----
    Dr. Weiss. No, clearances are dangerous.
    The Chairman. OK.
    Dr. Weiss. For the--not for Department of Defense 
applications, but for commercial industry.
    But, what we need going on is regulation, and the 
regulation is to mandate the NIST standards, and that's why, to 
me, this is so important. You're Commerce. You have NIST. I was 
part of the team that extended NIST SP 800-53 to address 
control systems, and we actually used that to look backward in 
time at actual control-system cyberevents to make sure it 
worked.
    And one other thing I should mention, one of the things 
control systems do not have to date: forensics. We don't really 
have a way of going back and analyzing control-system 
cyberincidents. We have to read between the lines.
    And finally, we need education and certifications that are 
unique to the control-system world, so we have some confidence 
that what is being done is being done by people who know and 
understand the situation. And, as I mentioned before, we've 
fallen between the cracks, and we really are looking for your 
help. We feel this is important, and we need your help.
    Thank you, and I look forward to taking questions.
    [The prepared statement of Dr. Weiss follows:]

     Prepared Statement of Dr. Joseph M. Weiss, Managing Partner, 
                       Applied Control Solutions
    Good afternoon, Mr. Chairman and Members of the Committee. I would 
like to thank the Committee for your invitation to discuss the current 
status of cyber security of the control systems utilized in our 
Nation's critical infrastructure.
    I am a nuclear engineer who has spent more than thirty years 
working in the commercial power industry designing, developing, 
implementing, and analyzing industrial instrumentation and control 
systems. I have performed cybersecurity vulnerability assessments of 
power plants, substations, electric utility control centers, and water 
systems. I am a member of many groups working to improve the 
reliability and availability of critical infrastructures and their 
control systems, including the North American Electric Reliability 
Council's (NERC) Control Systems Security Working Group (CSSWG), the 
Instrumentation Systems and Automation Society (ISA) S99 Manufacturing 
and Control Systems Security Committee, the National Institute of 
Standards and Technology (NIST) Industry-Grid Working Group, Institute 
for Electrical and Electronic Engineers (IEEE) Power Engineering 
Society Substations Committee, International ElectroTechnical 
Commission (IEC) Technical Committee 57 Working Group 15, and Council 
on Large Electric Systems (CIGRE) Working Group D2.22-Treatment of 
Information Security for Electric Power Utilities (EPUs). I would like 
to state for the record that the views expressed in this testimony are 
mine.
    Until 2000, my focus strictly was to design and develop control 
systems that were efficient, flexible, cost-effective, and remotely 
accessible, without concern for cyber security. At about that time, the 
idea of interconnecting control systems with other networked computing 
systems started to gain a foothold as a means to help lower costs and 
improve efficiency, by making available operations-related data for 
management ``decision support.'' Systems of all kinds that were not 
interconnected with others and thereby could not share information 
(``islands of automation'') became viewed as an outmoded philosophy. 
But at the same time, there was no corresponding appreciation for the 
cyber security risks created. To a considerable extent, a lack of 
appreciation for the potential security pitfalls of highly 
interconnected systems is still prevalent today, as can be witnessed in 
many articles on new control systems and control system conferences. As 
such, the need for organizations to obtain information from operational 
control system networks to enable ancillary business objectives has 
often unknowingly led to increased cyber vulnerability of control 
system assets themselves.
    The timing of this hearing is fortuitous as the Stimulus Bill has 
recently been approved which is stimulating work on the Smart Grid, the 
North American Electric Reliability Corporation (NERC) Critical 
Infrastructure Protection (CIP) cyber security standards are being 
updated, the Chemical Facility Anti-Terrorism Standards (CFATS) is 
being reviewed, and the water industry R&D Roadmap has been issued. In 
each case, I believe there are shortcomings that can have significant 
impacts on the security of our critical infrastructures if they are not 
adequately addressed.
Introduction \1\
---------------------------------------------------------------------------
    \1\ The testimony is based on the White Paper prepared for the 
Center for Strategic and International Studies, ``Assuring Industrial 
Control System (ICS) Cyber Security'', by Joe Weiss, dated August 25, 
2008.
---------------------------------------------------------------------------
    Industrial Control Systems (ICS) \2\ are an integral part of the 
industrial infrastructure providing for the national good. While 
sharing basic constructs with Information Technology (IT) business 
systems, ICSs are technically, administratively, and functionally more 
complex and unique than business IT systems. Critical infrastructure 
protection focuses on protecting and maintaining a safe and reliable 
supply of electric power, oil, water, gasoline, chemicals, food, etc. 
Computer cyber vulnerabilities are important if they can affect the 
safe, functional performance of these systems and processes. One should 
view current ICS cyber security as where mainstream IT security was 
fifteen years ago--it is in the formative stage and needs support to 
leapfrog the previous IT learning curve.
---------------------------------------------------------------------------
    \2\ It should be noted that many of the acronyms used in industrial 
controls may be similar to acronyms used in government or other 
applications but with different meanings. Examples are ICS, IED, and 
IDS. In order to avoid confusion all acronyms have been spelled out the 
first time they have been used.
---------------------------------------------------------------------------
    The convergence of mainstream IT and ICS systems require both 
mainstream and control system expertise. It is the successful 
convergence of these systems and organizations that will enable the 
promised secure productivity benefits. To ensure that ICS are 
adequately represented, include subject matter experts with control 
systems experience in all planning meetings that could affect these 
systems.
    Generally cyber security has been the purview of the Information 
Technology (IT) department, while control system departments have 
focused on equipment efficiency and reliability--not cyber security. 
This has led to the current situation where some parts of the 
organization are now sensitized to security while others are not as yet 
aware of the need. Industry has made progress in identifying control 
system cyber security as an issue while not appreciating the full 
gravity of the matter. There is a significant difference between the 
security philosophies of enterprise IT and ICS. The purpose of 
enterprise security is to protect the data residing in the servers from 
attack. The purpose of ICS security is to protect the ability of the 
facility to safely and securely operate, regardless of what may befall 
the rest of the network.
    Cyber refers to electronic communications between systems and/or 
individuals. This term applies to any electronic device with serial or 
network connections. For this White Paper, the umbrella term ``cyber'' 
addresses all electronic impacts on ICS operation including:

  <bullet> intentional targeted attacks,

  <bullet> unintended consequences such as from viruses and worms,

  <bullet> unintentional impacts from inappropriate policies, design, 
        technologies, and/or testing,

  <bullet> Electro Magnetic Pulse (EMP),

  <bullet> Electro Magnetic Interference (EMI),

  <bullet> other electronic impacts.

    The umbrella term ``ICS'' includes:

  <bullet> automated control systems (ACS),

  <bullet> distributed control systems (DCS),

  <bullet> programmable logic controllers (PLC),

  <bullet> supervisory control and data acquisition (SCADA) systems,

  <bullet> intelligent electronically operated field devices, such as 
        valves, controllers, instrumentation,

  <bullet> intelligent meters and other aspects of the Smart Grid,

  <bullet> networked-computing systems.

    An ICS is actually a system of systems. A crude distinction between 
mainstream IT and control systems is that IT uses ``physics to 
manipulate data'' while an ICS uses ``data to manipulate physics.'' The 
potential consequences from compromising an ICS can be devastating to 
public health and safety, national security, and the economy. 
Compromised ICS systems can, and have, led to extensive cascading power 
outages, dangerous toxic chemical releases, and explosions. It is 
therefore important to implement an ICS with security controls that 
allow for reliable, safe, and flexible performance.
    The design and operation of ICS and IT systems are different. 
Different staffs within an organization conceive and support each 
system. The IT designers are generally computer scientists skilled in 
the IT world. They view ``the enemy of the IT system'' as an attacker 
and design in extensive security checks and controls. The ICS designers 
are generally engineers skilled in the field the ICS is controlling. 
They view ``the enemy of the ICS'' not as an attacker, but rather 
system failure. Therefore the ICS design uses the ``KISS'' principle 
(keep it simple stupid) intentionally making systems idiot-proof. This 
approach results in very reliable but paradoxically, cyber-vulnerable 
systems. Moreover, the need for reliable, safe, flexible performance 
precludes legacy ICS from being fully secured, in part because of 
limited computing resources. This results in trade-off conflicts 
between performance/safety and security. These differences in 
fundamental approaches lead to conflicting technical, cultural, and 
operational differences between ICS and IT that need addressing.
CIA Triad Model--Confidentiality, Availability, and Integrity

  <bullet> Confidentiality describes how the system or data is accessed

  <bullet> Integrity describes the accuracy or completeness of the data

  <bullet> Availability describes the reliability of accessing the 
        system or data

    Traditional IT systems employ the best practices associated with 
``Confidentiality, Integrity, Availability'' (CIA) triad model--in that 
order of importance. The placement of rigorous end user access controls 
and additional data encryption processes provide confidentiality for 
critical information.
    Traditional ICS systems employ the best practices associated with 
``Confidentiality, Integrity, Availability'' (CIA) triad model--in the 
reverse order; AIC- Availability, Integrity, Confidentiality. Extra 
emphasis is placed on availability and message integrity.
    The converged ICS/IT model would employ the best practices 
associated with ``Confidentiality, Integrity, Availability'' (CIA) 
triad model--in an equally balanced way. The compromise of any of the 
triad will cause the system to fail and become unusable.
    It is important to point out another major difference between IT 
and ICS systems. In an IT system, the end user generally is a person, 
in an ICS system the end user generally is a computer or other highly 
intelligent control device. This distinction lies at the heart of the 
issue around securing an ICS in a manner appropriate to current need.
    IT systems strive to consolidate and centralize to achieve an 
economy of scale to lower operational costs for the IT system. ICS 
systems by necessity are distributed systems that insure the 
availability and reliability of the ICS and the systems that the ICS 
controls. This means that remote access is often available directly 
from field devices reducing the effectiveness of firewalls at the 
Central Demilitarized Zone (DMZ) and requiring additional protection at 
remote locations. The limited computer processing power in the field 
devices precludes use of many computer resource-intensive IT security 
technologies such as remote authentication servers. Newer ICS designs 
do, or will, employ advanced high-speed data networking technologies. 
Thus, what used to be a single attack vector (the host) increases by 
the number of smart field devices (Intelligent Electronic Devices 
[IED], smart transmitters, smart drives, etc.).
    The use of mainstream operating system environments such as 
Windows, UNIX, and Linux for running ICS applications leave them just 
as vulnerable as IT systems. While at the same time, the application of 
mainstream IT security technical solutions and/or methods will help to 
secure more modern ICS host computers and operator consoles (i.e., 
PCs). In technologies such as Virtual Private Networks (VPN) used to 
secure communications to and from ICS networks, IT security focuses on 
the strength of the encryption algorithm, while ICS security focuses on 
what goes into the VPN. An example of this concern was demonstrated by 
one of the Department of Energy's National Laboratories of how a hacker 
can manipulate widely used ``middleware'' software running on current 
mainstream computer systems without a great deal of difficulty. In this 
sobering demonstration, using vulnerabilities in OPC code (``OLE for 
Process Control''), the system appears to be functioning properly even 
though it is not; while displaying incorrect information on, or 
withholding correct information from, system operator consoles.
    Certain mainstream IT security technologies adversely affect the 
operation of ICS, such as having components freeze-up while using port 
scanning tools or block encryption slowing down control system 
operation--basic Denial of Service (DOS). IT systems are ``best 
effort'' in that they get the task complete when they get the task 
completed. ICS systems are ``deterministic'' in that they must do it 
NOW and cannot wait for later as that will be too late.
    To enable proper security, these examples demonstrate the mandate 
to understand the ICS and control processes and to evaluate the impacts 
of potential security process and actions upon those systems and 
processes prior to implementation.
    Figure 1 is used to illustrate the distinction between ICS and 
business IT considerations. A person is shown (see yellow arrow for 
location) at the bottom cylindrical torus to provide a perspective of 
size. In this nuclear plant case, the box shown in the figure (on the 
left side approximately one-quarter of the way up, see green arrow for 
location) is one of two main coolant pumps each consuming enough power 
to power approximately 30,000-50,000 homes. A power plant of this 
design suffered a broadcast storm resulting in a DOS. In a typical 
broadcast storm creating a DOS, the impact is disruption of 
communications across a computer network, potentially resulting in 
shutdown of computers as a consequence. This broadcast storm DOS 
shutdown the equipment controlling the pumps eventually resulting in 
the shutdown of the nuclear plant. The term DOS has a completely 
different meaning when talking about desktops being shutdown compared 
to major equipment in nuclear plants and other major facilities being 
shutdown or compromised.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Figure 1--Nuclear Power Plant Denial of Service.
Need for Understanding
    In the past, the people that implemented a system, whether Business 
IT or ICS, were intimately familiar with the processes and systems 
being automated. Today, few people possess this kind of system 
knowledge. Rather they design and implement systems based upon design 
concepts handed to them. In the case of an ICS, the designer and 
implementer may not even know what the end device does, how it does it, 
or even what it looks like. The system designer and implementer may not 
be in the same country as the controlled device. This disconnect allows 
for loss of understanding about the impacts of miss-operation of a 
device, device failure, or improper communication with the device.
    The more complex the ICS application, the more detailed knowledge 
of the automated ICS processes are required: how it is designed and 
operated; how it communicates; how it is interconnected with other 
systems and ancillary computing assets. Only with this knowledge can 
appreciation of the cyber vulnerabilities of the system as a whole can 
begin. There is a current lack of ICS cyber security college curricula 
and ICS cyber security professional certifications.
    Figure 2 characterizes the relationship of the different types of 
special technical skills needed for ICS cyber security expertise, and 
the relative quantities of each at work in the industry today. Most 
people now becoming involved with ICS cyber security typically come 
from a mainstream IT background and not an ICS background. This 
distinction needs to be better appreciated by government personnel 
(e.g., DHS NCSD and S&T, DOE, EPA, etc.) responsible for ICS security. 
This lack of appreciation has resulted in the repackaging of IT 
business security techniques for control systems rather than addressing 
the needs of field ICS devices that often have no security or lack the 
capability to implement modern security mitigation technologies. This, 
in some cases, inadvertently results in making ICS systems less 
reliable without providing increased security. An example of the 
uninformed use of mainstream IT technologies is utilizing port scanners 
on PLC networks.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Figure 2--Relationship and Relative Availability of ICS Cyber 
Security Expertise.

    In figure 2, we see that IT encompasses a large realm, but does not 
include ICS processes. It is true that IT evaluation and design models 
can be used to develop an ICS; the major difference is that within the 
Business IT model all tasks have a defined start and a defined end. In 
the process control model, the process is a continuous loop. Generally, 
the IT community avoids the continuous loop, while the ICS community 
embraces the continuous loop. It is the continuous loop that enables an 
ICS to operate efficiently and safely. As an example, automated meters 
``read and record the value from a meter every second''. The meter will 
happily read and record forever, and be proud that it is doing its 
function.
    A common misconception deals with the availability of knowledge 
about an ICS. There are only a limited number of DCS, SCADA, and PLC 
suppliers A few of the major suppliers include ABB, Areva, Alsthom, 
Emerson, General Electric, Honeywell, Invensys, Metso Automation, 
Rockwell Automation, Schneider, Siemens, Telvent, and Yokogawa. 
Approximately half of the suppliers are US-based while the other half 
are European or Asian-based. The U.S. suppliers provide systems to 
North America and throughout the world, except to ``unfriendly'' 
countries. The ICS systems provided internationally are the same 
systems provided in North America with the same architecture, same 
default vendor passwords, and same training. Sales of electric industry 
SCADA/Energy Management Systems include the system source code, meaning 
that the software used in North American SCADA systems is available 
world-wide. Some of the largest implementations of ICS systems 
originating in the United States are implemented in the Middle East and 
China. A number of North American control system suppliers have 
development activities in countries with dubious credentials (e.g., a 
major North American control system supplier has a major code writing 
office in China and a European RTU manufacturer has code written in 
Iran). There are cases where U.S. companies will remotely control 
assets throughout the world from North America (and vice versa). The 
non-North American-based ICS suppliers provide the same systems to 
North America as those provided to countries NOT friendly to us. There 
are cases where non-North American companies will remotely control 
assets in North America from Europe or Asia. Additionally, ICS 
engineers willingly share information. This truly is a global issue.
    An example of information-sharing concerns is the SCADA Internet e-
mail-based discussion list from Australia where people from around the 
world can discuss SCADA/control system issues. Unfortunately, this 
includes questions from individuals from suspect countries about ICS 
systems, processes, or devices they do not have, but that we do. This 
approach works in a benign world--unfortunately, we don't live in one.
    There is a reticence by commercial entities to share information 
with the U.S. Government. Few ``public'' ICS cyber incidents have been 
documented (probably less than 10), yet there have been more than 125 
actual ICS incidents. Even the ``public'' cases may not be easily found 
as they are buried in public documents such as the National 
Transportation Safety Board (NTSB) report on the Bellingham, WA 
Pipeline Disaster \3\ or nuclear plant Operating Experience Reports. An 
interesting anecdote was a presentation made by a utility at the 2004 
KEMA Control System Cyber Security Conference on an actual SCADA system 
external attack. This event shut down the SCADA system for 2 weeks. 
However, since power was not lost, the utility chose not to inform 
local law enforcement, the FBI, or the Electric Sector ISAC since they 
did not want their customers to know. This is one of the reasons it is 
not possible to provide a credible business case for control system 
cyber security.
---------------------------------------------------------------------------
    \3\ ``Pipeline Accident Report Pipeline Rupture and Subsequent Fire 
in Bellingham, Washington June 10, 1999'', National Transmission Safety 
Board Report NTSB/PAR-02/02; PB2002-916502.
---------------------------------------------------------------------------
    The prevailing perception is the government will not protect 
confidential commercial information and organizations such as ISACs 
will act as regulators. That is, if two organizations have the same 
vulnerabilities and only one is willing to share the information, the 
organization sharing the information will be punished as not being 
cyber secure while the organization does not share will be viewed as 
cyber secure by default. This has Sarbanes-Oxley implications as well. 
It is one reason why the U.S. CERT, which is government-operated, does 
not work as effectively as needed. Therefore, a ``Cyber Incident 
Response Team (CIRT) for Control Systems'' by a global non-governmental 
organization with credible control system expertise is required. This 
organization would collect and disseminate information used to provide 
the necessary business cases for implementing a comprehensive ICS 
system security program. Models for this approach include CERT, 
InfraGard, or FAA.\4\ Specific details can be provided if desired. The 
InfraGard model for public-private information sharing requires more 
sharing with the ICS community by the FBI so industry can protect 
themselves if a cyberattack has been detected. The FBI's ``cone of 
silence'' is not adequate. As identified by numerous government reports 
following the 9/11 disaster, there is a need to ``connect the dots'' to 
determine if there are patterns in events that should be followed-up. 
In this case, the dots that need to be connected are with ICS cyber 
incidents to determine if policies, technologies, and testing are 
adequate to address these incidents.
---------------------------------------------------------------------------
    \4\ http://asrs.arc.nasa.gov/overview/immunity.html.
---------------------------------------------------------------------------
    Operationally, there are differences between mainstream IT and ICS 
systems. Of primary concern is maintenance of systems. Like all 
systems, periodic maintenance and tuning is required to insure 
effective operation which must be scheduled in advance so as not to 
cause system impacts. Shutting down a major industrial plant may cost 
as much as several hundred thousand dollars per minute.
    The current state of the IT world insures a high degree of 
intelligence and processing capability on the part of the various 
devices within an IT system. The standard implementation provides 
centralized control points for authentication and authorization of IT 
activities. The lifetime of the equipment in an IT network, typically, 
ranges from 3 to 7 years before anticipated replacement and often does 
not need to be in constant operation. By the very nature of the devices 
and their intended function, ICS devices may be 15 to 20 years old, 
perhaps older, before anticipated replacement. Since security was not 
an initial design consideration, ICS devices do not have excess 
computing capacity for what would have been considered unwanted or 
unneeded applications.
    As can be seen, device expectations are different for ICS and IT 
systems, and this very difference generates two incredibly complex 
problems: how to authenticate access, and how to patch or upgrade 
software.
    Of considerable importance is intra- and inter-systems 
communication in both the IT and ICS realms. ICS systems are intended 
to operate at all times, whether connected to other systems or not. 
This independence makes the ICS very flexible, indeed. The age of the 
equipment makes it difficult to authenticate communications properly. 
Not just between servers, but between servers and devices, devices and 
devices, workstations and devices, devices and people. The older 
technologies do not have the ability, by want of adequate operating 
systems, to access centralized authentication processes. By want of the 
ability of the ICS network to be broken into very small chunks, the use 
of centralized authentication is impractical, using the technologies of 
today. In an IT network, the authentication rules take place in the 
background and are hidden, for the most part, from the end user. In an 
ICS network, the authentication rules take place in the foreground and 
require interaction with the end user, causing delay and frustration.
    Patching or upgrading an ICS has many pitfalls. The field device 
must be taken out of service which may require stopping the process 
being controlled. This in turn may cost many thousands of dollars and 
impact thousands of people. An important issue is how to protect 
unpatchable, unsecurable workstations such as those still running NT 
Service Pack 4, Windows 95, and Windows 97. Many of these older 
workstations were designed as part of plant equipment and control 
system packages and cannot be replaced without replacing the systems. 
Additionally, many Windows patches in the ICS world are not standard 
Microsoft patches but have been modified by the ICS supplier. 
Implementing a generic Microsoft patch can potentially do more harm 
than the virus or worm against which it was meant to defend. As an 
example, in 2003 when the Slammer worm was in the wild, one ICS 
supplier sent a letter to all of their customers stating that the 
generic Microsoft patch should not be installed as it WOULD shut down 
the ICS. Another example was a water utility that patched a system at a 
Water Treatment Plant with a patch from the operating system vendor. 
Following the patch, they were able to start pumps, but were unable to 
stop them!
    The disconnection between senior management in charge of Operations 
from senior management in charge of security is leading to vendors 
being tasked to build new technology for reliability, not security 
purposes. The mantra of ``from the plant floor to the Boardroom'' is 
being followed without seriously asking the question of why an 
executive in the Boardroom would want to control a valve in a plant or 
open a breaker in a substation. Several years ago, a heat wave caused 
failures of a large number of electric transformers. In order to 
address this, the vendor installed temperature sensing and decided that 
getting information out to the largest possible audience was the best 
way to proceed. Consequently, the new transformer was built with a 
Microsoft IIS webserver integrally built into the transformer (Figure 
3). Cyber vulnerable technologies such as Bluetooth and wireless modems 
are being built-in to ICS field devices. As one vendor claims: ``They 
now have a Bluetooth connection for their new distribution recloser. If 
your line folks and/or engineers would like to sit in the truck on 
those rainy days checking on the recloser . . .'' This means it is 
possible to get onto the SCADA network far downstream of the corporate 
firewall. In many cases, it is not possible to bypass the vulnerable 
remote access without disabling the ICS devices.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Figure 3--Distribution Transformer with Built-in Webserver.

    A great concern is the integration of ICS systems with other 
systems such as Geographical Information Systems (GIS) or customer 
information systems. The unintended consequences of incompatible 
software or inappropriate communications have caused significant cyber 
incidents. This is an insidious problem because the individual systems 
work as designed, while the vulnerability is the interconnection of 
individually secure systems. In one case, the rebooting of a control 
system workstation that was not even on the control system network 
directly led to the automatic shutdown of a nuclear power plant. In 
this case, both the workstation and the PLC worked exactly as 
designed--two rights made a wrong. In another instance, incompatible 
software turned a fossil power plant into a ``yo-yo'' causing it to 
swing from maximum load to minimum load and back, within configured 
parameters, for 3 hours causing extreme stress to the turbine rotor.
    There are currently very few forensics to detect or prevent these 
types of events, thus pointing to the need for additional or improved 
monitoring and logging. This lack of ICS cyber forensics has two 
aspects. The first is for performing forensics on COTS operating 
systems (e.g., Windows). The second and more challenging issue is how 
to perform cyber forensics on an antique 1200 baud modem to determine 
if a cyber event has occurred. Technologies exist, but will removing a 
hard drive actually impact the restart and operation of an ICS?
    One final concern almost seems trivial but isn't. In most tabletop 
exercises, the ultimate fix is to ``pull the plug'' (isolate the ICS 
from all others). Unfortunately, in complex ICS implementations, it may 
not be possible to know if the ICS really has been isolated. 
Consequently, a very important issue is to determine how an 
organization can tell if the ICS has been isolated and also if any 
Trojans have been left that can affect restart.
Why Do We Care
    It is often, but mistakenly, assumed that a cyber security incident 
is always a premeditated targeted attack. However, NIST defines a Cyber 
Incident \5\ as: ``An occurrence that actually or potentially 
jeopardizes the confidentiality, integrity, or availability (CIA) of an 
information system or the information the system processes, stores, or 
transmits or that constitutes a violation or imminent threat of 
violation of security policies, security procedures, or acceptable use 
policies. Incidents may be intentional or unintentional.'' 
Unintentional compromises of CIA are significantly more prevalent and 
can have severe consequences, but this does not seem to be part of many 
current discussions of ICS cyber security. The direct cause of many ICS 
cyber incidents are unintentional human error. This phenomenon must be 
addressed by cyber security standards if they are to be effective. It 
is important to note that protecting ICS from these unintentional 
compromises also protects them from intentional compromise and outside 
threat.
---------------------------------------------------------------------------
    \5\ National Institute of Standards and Technology Federal 
Information Processing Standards Publication 200, Minimum Security 
Requirements for Federal Information and Information Systems, March 
2006. http://csrc.nist.gov/publications/fips/fips200/FIPS-200-final-
march.pdf
---------------------------------------------------------------------------
    Contacts throughout industry have shared details and adverse 
affects of more than 125 confirmed ICS cyber security incidents to 
date. The incidents are international in scope (North America, South 
America, Europe, and Asia) and span multiple industrial infrastructures 
including electric power, water, oil/gas, chemical, manufacturing, and 
transportation. With respect to the electric power industry, cyber 
incidents have occurred in transmission, distribution, and generation 
including fossil, hydro, combustion turbine, and nuclear power plants. 
Many of the ICS cyber incidents have resulted from the 
interconnectivity of systems, not from lack of traditional IT security 
approaches such as complex passwords or effective firewalls. Impacts, 
whether intentional or unintentional, range from trivial to significant 
environmental discharges, serious equipment damage, and even deaths.
    Figure 4 shows the result of a Bellingham, WA, pipe rupture which 
an investigation concluded was not caused by an intentional act. 
Because of the detailed evaluation by NTSB, this is arguably the most 
documented ICS cyber incident. According to the NTSB Final Report, the 
SCADA system was the proximate cause of the event. Because of the 
availability of that information, a detailed post-event analysis was 
performed which provided a detailed time line, examination of the 
event, actions taken and actions that SHOULD HAVE been taken.\6\
---------------------------------------------------------------------------
    \6\ ``Bellingham, Washington Control System Cyber Security Case 
Study'', Marshall Abrams, MITRE, Joe Weiss, Applied Control Solutions, 
August 2007, http://csrc.nist.gov/groups/SMA/fisma/ics/documents/
Bellingham_Case_Study_report%2020sep071.pdf
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

---------------------------------------------------------------------------
    Figure 4--Bellingham, WA Gasoline Pipeline Rupture.

    Figure 5 is a picture of the Idaho National Laboratory (INL) 
demonstration of the capability to intentionally destroy an electric 
generator from a cyberattack.\7\
---------------------------------------------------------------------------
    \7\ http://news.yahoo.com/s/ap/20070927/ap_on_go_ca_st_pe/
hacking_the_grid_13.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Figure 5--INL Demonstration of Destroying Large Equipment via a 
---------------------------------------------------------------------------
cyberattack.

    An attempt was made to categorize the severity of these events. The 
prevailing view has been there have been no significant ICS cyber 
incidents, but that industry will respond when a significant event 
occurs. Consequently, a database of ICS cyber incidents was examined to 
determine the level of severity of these incidents. Arbitrarily, three 
levels of severity were developed based on impacts:
Severe
    This represents failures, omissions, or errors in design, 
configuration, or implementation of required programs and policies 
which have the potential for major equipment and/or environmental 
damage (more than millions of dollars); and/or extreme physical harm to 
facilities' personnel or the public; and/or extreme economic impact 
(bankruptcy).
    Example: The Bellingham, WA gasoline pipeline rupture's impact was 
3 killed, $45M damage, and bankruptcy of the Olympic Pipeline Company. 
Forensics were not available to determine the actual root cause. This 
incident would not have been prevented by mainstream IT security 
policies or technologies.
Moderate
    This represents failures, omissions, or errors in design, 
configuration, or implementation of required programs and policies 
which have the potential for moderate equipment and/or environmental 
damage (up to hundreds of thousands of dollars) with at most some 
physical harm to facility personnel or the public (no deaths).
    Examples: (1) Maroochy (Australia) wireless hack caused an 
environmental spill of moderate economic consequence. This incident 
would not have been prevented by mainstream IT security policies or 
technologies. (2) Browns Ferry 3 Nuclear Plant Broadcast Storm could 
have been caused by a bad Programmable Logic Controller (PLC) card, 
insufficient bandwidth, or caused by mainstream IT security testing. 
Forensics were not available to determine the actual root cause. This 
incident would not have been prevented by mainstream IT security 
policies or technologies.
Minor
    This represents failures, omissions, or errors in design, 
configuration, or implementation of required programs and policies 
which have the potential for minimal damage or economic impact (less 
than $50,000) with no physical harm to facility personnel or the 
public.
    Example: Davis Besse Nuclear Plant cyber incident caused by a 
contractor with a laptop contaminated by the Slammer worm plugging into 
the plant Safety Parameter Display System. This incident could have 
been prevented by mainstream IT security policies.
    From the incident data base, many of the incidents would have been 
judged to be Moderate or Severe. Most would not have been detected nor 
prevented by traditional IT security approaches because they were 
caused by the system interconnections or inappropriate policies or 
testing--not by mainstream IT cyber vulnerabilities. In order to 
improve security and avoid vast expenditures on systems and equipment 
without real improvements in automation network security, there is a 
critical need to examine previous ICS cyber incidents to determine if 
there are patterns in these incidents, what technologies would detect 
such events, and what policies should be followed. For mainstream IT 
security approaches to be effective, they need to be combined with ICS 
expertise that appreciates potential impact on facilities. Examination 
of ISA SP99 requirements and risk definitions and tools such as the 
Cyber Security Self-Assessment Tool (CS2SAT) \8\ make it clear that 
consequences must be understood in terms of the effects on facilities, 
major impact on equipment, environmental concerns, and public safety.
---------------------------------------------------------------------------
    \8\ U.S. CERT Control Systems Security Program, http://
csrp.inl.gov/Self-Assessment_Tool.html.
---------------------------------------------------------------------------
    One way to move toward cross-sector convergence in cyber security 
ways and means is for all stakeholders to use the same terminology and 
to eliminate duplicative or overlapping sets of security standards' 
requirements. NIST offers a set of high-quality publications addressing 
most of the relevant managerial, administrative, operational, 
procedural, and technical considerations. Each of these publications, 
such as SP 800-53, have been put through a significant international 
public vetting process, including, to the extent possible, by 
authorities in the national security domain. NIST offers its documents 
to all organizations interested in using them as a basis for developing 
in-common standards within the ICS community. The recent Nuclear 
Regulatory Commission Draft Regulatory Guide 5022 specifically 
references NIST SP 800-53 and other appropriate NIST documents.
Incentives versus Regulation
    Because I am very familiar with the electric power industry, I will 
focus on that segment. However, the information and experience from 
this segment generalizes across the entire critical infrastructure.
    When the EPRI Enterprise Infrastructure (cyber security) Program 
was initiated in 2000, control system cyber security was essentially a 
non-factor--it was a problem of omission. Immediately following 9/11, 
the Federal Energy Regulatory Commission (FERC) attempted to provide 
incentives for security improvements by issuing a letter that would 
allow security upgrades to be included in the rate base. For various 
reasons, very few utilities took advantage of the offer and little was 
done. Consequently, in 2003 FERC approached the North American Electric 
Reliability Corporation (NERC) Critical Infrastructure Protection (CIP) 
Working Group with an ultimatum--do something or FERC would do it to 
you. In order to preclude regulations, industry promised they would 
produce cyber security requirements that would comprehensively secure 
the electric enterprise. The electric industry eventually developed the 
NERC CIP series of standards and the nuclear industry developed the 
Nuclear Energy Institute (NEI) guidance documents (NEI-0404). Instead 
of providing a comprehensive set of standards to protect the electric 
infrastructure, the NERC CIPs and NEI-0404 were ambiguous and with 
multiple exclusions. The industry went from being vulnerable because of 
lack of knowledge to now being vulnerable because of excluding systems 
and technologies and then claiming compliance. The electric industry 
has demonstrated they cannot secure the electric infrastructure without 
regulation. Other industrial verticals have similarly defaulted. 
Therefore, regulation is needed.
Recommendations
  <bullet> Develop a clear understanding of ICS cyber security.

  <bullet> Develop a clear understanding of the associated impacts on 
        system reliability and safety on the part of industry, 
        government and private citizens.

  <bullet> Define ``cyber'' threats in the broadest possible terms 
        including intentional, unintentional, natural and other 
        electronic threats such as EMP.

  <bullet> Develop security technologies and best practices for the 
        field devices based upon actual and expected ICS cyber 
        incidents.

  <bullet> Develop academic curricula in ICS cyber security.

  <bullet> Leverage appropriate IT technologies and best practices for 
        securing workstations using commercial off-the-shelf (COTS) 
        operating systems.

  <bullet> Establish standard certification metrics for ICS processes, 
        systems, personnel, and cyber security.

  <bullet> Promote/mandate adoption of the NIST Risk Management 
        Framework for all infrastructures or at least the industrial 
        infrastructure subset.

  <bullet> Establish a global, non-governmental Computer Emergency 
        Response Team (CERT) for Control Systems staffed with control 
        system expertise for information sharing.

  <bullet> Establish a means for vetting experts rather than using 
        traditional security clearances.

  <bullet> Establish, promote, and support an open demonstration 
        facility dedicated to best practices for ICS systems.

  <bullet> Provide regulation and incentives for cyber security of 
        critical infrastructure industries.

  <bullet> Include Subject Matter Experts with control system 
        experience at high level cyber security planning sessions.

  <bullet> Change the culture of manufacturing in critical industries 
        so that security is considered as important as performance and 
        safety.
Summary
    Recognize that first and foremost, ICS systems need to operate 
safely, efficiently, and securely which will require regulation. ICS 
cyber vulnerabilities are substantial and have already caused 
significant impacts including deaths. Security needs to be incorporated 
in a way that does not jeopardize the safety and performance of these 
systems. One should view ICS cyber security as where mainstream IT 
security was fifteen years ago--it is in the formative stage and needs 
support to leapfrog the previous IT learning curve. There is a 
convergence of mainstream IT and control systems that will require both 
areas of expertise. To ensure that ICS are adequately represented, 
include subject matter experts with control systems experience in all 
planning meetings that could affect these systems. The prevailing 
perception is the government will not protect confidential commercial 
information and organizations such as ISACs will act as regulators. 
This has Sarbanes-Oxley implications as well. It is one reason why the 
U.S. CERT, which is government-operated, does not work as effectively 
as needed and a ``CIRT for Control Systems'' by a global non-
governmental organization with credible control system expertise is 
required.

    The Chairman. Thank you very much, Dr. Weiss.
    Dr. Amoroso?

 STATEMENT OF DR. EDWARD G. AMOROSO, SENIOR VICE PRESIDENT AND 
               CHIEF SECURITY OFFICER, AT&T INC.

    Dr. Amoroso. OK. So, first of all, thanks very much for the 
invite. I do appreciate it.
    Mr. Chairman, I'm an example of a person who's very much in 
the trenches, day to day, working cybersecurity issues. My job 
at AT&T is the realtime protection of our vast infrastructure, 
so you can almost think of AT&T as a microcosm of the critical 
infrastructure that we have in our country. I mean, we have, 
you know, these wireless assets and Internet assets and 
business and commercial-service assets, and certainly do have 
our share of control systems, as well. So, day in, day out, 
we're working very hard to protect our systems from hackers and 
terrorists and criminals and all the things that really present 
quite a challenge for our Nation.
    Now, for me, personally, I was first introduced to the 
topic when I joined Bell Laboratories in the early 1980s, and 
AT&T was working cybersecurity issues in those days, mostly 
with the Federal Government. You might remember that, in the 
1980s, when you talked about cybersecurity--we didn't even have 
that term then--you got a lot of blank stares, right? You might 
get somebody in Washington interested, you might get a bank 
interested, but certainly no businesses. We don't have a legacy 
in this area. And I thought Dr. Weiss's comments were a good 
example of, maybe, where we were in computers and networks 
about 20 years ago, probably a good two-decade lag, perhaps, in 
our control systems.
    So, for me, personally, to get to the point where I have 
the competence and capability to protect AT&T's infrastructure, 
AT&T put me through 24 years of doing almost nothing but 
cybersecurity. They paid for me to go get a Ph.D. in computer 
science, they sent me to Columbia Business School to learn the 
business issues, they put up with me writing four books on the 
topic, so I've been through, you know, kind of a quarter of a 
century of boot camp in cybersecurity, and I'm here to, maybe, 
just provide a little bit of perspective and a couple of 
suggestions on some things that I think are going to be 
important for our country.
    And I want to use an example. There's a particular type of 
threat that you may be reading about. If you picked up the New 
York Times today, then you saw there was an article on 
``botnets,'' which has become a buzzword. These are pretty 
nasty attack approaches. A ``botnet'' is something that 
harnesses the power of all of our PCs in our homes. I think 
just about everyone in this room would probably admit, perhaps 
privately, that they don't administer their PC too well at 
home. I know that I don't; and I do this for a living. When you 
don't, it's very easy for attackers or terrorists or folks from 
who the heck knows where can drop--to drop software onto your 
PC that would, very unsuspectingly, be off doing things over 
your broadband connection.
    When you do this, when you do this on a large scale and set 
up controllers to aim all of this energy, this cybersecurity, 
cyberattack energy at an unsuspecting victim--could be a 
civilian agency of the United States--the results can be pretty 
lethal. It's like aiming a laser-guided weapon at a--at, as I 
said, an unsuspecting victim; could shut down government. And 
you reference earlier, Mr. Chairman, the experience that 
Estonia had when that was done to them.
    A couple of things by way recommendations. Number one, I 
think it becomes imperative that, in our government procurement 
process, that we start paying more attention to threats that 
are valid today. I look, almost daily, at requests for proposal 
and requests for information that come from Washington to the 
private sector for products and services that we would be 
selling them, and they generally don't have sufficient security 
embedded in the set of requirements that come to us. I can't 
tell you how many times we'll respond to a bid, and append it 
with what we believe would be sufficient security to protect 
the government. I think this is something we need to very 
quickly address.
    Second, I think it's imperative that we start building a 
greater international cooperation. When we're off chasing one 
of these things in realtime, chasing a botnet or trying very 
hard to protect one of our customers, it's generally the case 
that the attack is coming, as you referenced earlier, Mr. 
Chairman, from around the world, and there really is no place 
for us to turn. Certainly as a major carrier, one would think, 
my goodness, it would probably be the case that AT&T could very 
easily reach out to any number of international carriers or 
countries or contacts, but that is not the case. There is no 
easy way for us to go work with--you referenced China and 
Russia, the two examples of countries where, if there's an 
attack emanating from there, we have to work around it--not so 
much with it, but around it. And that's something that I think 
needs to be address very quickly.
    Third recommendation is that it's pretty obvious that the 
world is moving more and more toward a mobility base. I'll bet 
everybody in this room has a mobile phone, you know, tucked in 
their pocket, hopefully on vibrate. That's going to change the 
game pretty significantly. When we think about the types of 
attacks and problems that we see in the computer and network 
area, they become all the more intense as mobility becomes a 
fundamental piece of our society, if it hasn't already. I think 
it's already a basic part of our critical infrastructure.
    So, I think government and the private sector is going to 
have to work more closely with the carriers, because we are 
the--we are the--if you think about it, there's an attacker, 
there's a victim, and what sits in between? The thing that sits 
in between is the network.
    So, we appreciate the invite to address the Committee, look 
forward to working with you. We've prepared some remarks that I 
hope you'll take a chance--take a moment to read. And look 
forward to answering any questions you might have.
    [The prepared statement of Dr. Amoroso follows:]

Prepared Statement of Dr. Edward G. Amoroso, Senior Vice President and 
                   Chief Security Officer, AT&T Inc.
    Good morning, my name is Edward Amoroso. I currently serve as 
Senior Vice President and Chief Security Officer of AT&T. I have worked 
in the area of cyber-security for the past 24 years, starting at Bell 
Labs. My current responsibilities include design and operation of the 
security systems and processes that protect AT&T's vast domestic and 
international wired and wireless infrastructure. This infrastructure 
supports AT&T's voice and data networks, and permits AT&T to provide 
the Internet access, telephony, video entertainment, data transmission 
and managed services that AT&T offers to its many millions of customers 
around the globe.
    My educational background includes a Bachelor's degree in physics 
from Dickinson College, as well as Masters and PhD degrees in computer 
science, both from the Stevens Institute of Technology, where I have 
also served as an adjunct professor of computer science for the past 
twenty years. I am a graduate of the Columbia Business School, and have 
written four books and many articles on the topic of cyber-security.
    On behalf of AT&T, I would like to thank the Committee for this 
invitation to comment on the cyber-security challenges facing my 
company, this Nation and the rest of the world. My comments include a 
professional perspective on how and why cyber-security threats have 
increased significantly over the past 5 years, as well as suggestions 
on how these threats should be addressed.
    I believe most citizens equate the issue of cyber-security with 
viruses that find their way onto computers, or with the stories they 
hear about so-called ``security breaches'' resulting from laptops being 
lost or stolen. These are certainly problems, but from the perspective 
of protecting the Nation's critical infrastructure, these issues are 
not severe. Cyber-security is more about protecting the infrastructure 
from intrusion by individuals or forces determined to disrupt the flow 
of data and the storage of information. Motives might be mere mischief, 
making a political statement, gaining business advantage, making 
pecuniary gain, exposing a vulnerability or something more sinister.
    In the mid-1990s, attacks on the infrastructure sometimes were 
clumsy, or so sophisticated as to be admired, but they did not cause 
lasting damage. But just as computing has advanced and evolved, so too 
has the frequency and form of attacks. For a time, those determined to 
intrude (call them hackers for simplicity-sake) were able to take 
advantage of the fact that most consumers, businesses and government 
agencies had not done a good job maintaining the security of their 
operating systems and common applications (such as browsers and e-mail 
applications) by applying security patches and running system security 
programs. ``Patching'' has improved dramatically across the global 
infrastructure, and anti-malware applications have become common place. 
Thus, attackers now use ``phishing'' or ``pharming'' approaches, 
whereby an unsuspecting victim is tricked into giving away passwords or 
personal information, or allowing malware to be dropped onto machines--
even those that are properly patched. Last year the FBI announced that 
revenues from cyber-crime, for the first time ever, exceeded drug 
trafficking as the most lucrative illegal global business, estimated at 
reaping more than $1 trillion annually in illicit profits.
    Evolving and more lethal type of cyber-attacks can devastate 
infrastructure. One form of attack uses ``botnets,'' which work by 
harnessing the power of unprotected PCs from homes and businesses. 
Malicious intruders, hackers and even terrorists are getting very good 
at harnessing the power of PCs and aiming them at unsuspecting victims. 
It has become so easy and rampant that the risk has grown 
exponentially. The result is a laser-like cyber-attack on an 
unsuspecting business or government system. Estonia, for example, was 
the subject of a botnet attack 2 years ago, and the results were 
catastrophic: The entire country was disconnected from the Internet, 
and the event has come to be known as ``WWI'' for ``Web War I.''
    For AT&T, cyber-security is the collective set of capabilities, 
procedures and practices that protect our customers and the services we 
offer them from the full spectrum of cyber-threats, including botnets. 
This assures that the information, applications, and services our 
customers want are secure, accurate, reliable and available wherever 
and whenever they are desired. Cyber-security is a leading corporate 
priority, and we are investing significant resources in making our 
network and our customers more secure. To this end, strong cyber-
security is essential to maintaining the integrity and reliability of 
the network, and well as protecting privacy of personal customer 
information.
    The technology within our network is rapidly evolving to support 
new applications and services. This year alone, AT&T is investing more 
than $18 billion in expanding the capabilities of our network and 
infrastructure to meet the rapid global expansion of advanced 
information technology and services, and to enhance reliability and 
security. The size and scope of AT&T's global network, coupled with our 
industry-leading cyber-security capabilities, gives us a unique 
perspective into malicious cyber-activity. Our advanced network 
technology currently transports more than 17 Petabytes a day of IP data 
traffic, and we expect that to double every 18 months for the 
foreseeable future. Our network technologies give us the capability to 
analyze traffic flows to detect malicious cyber-activities, and, in 
many cases, get very early indicators of attacks before they have the 
opportunity to become major events. For example, we have implemented 
the capability within our network to automatically detect and mitigate 
most Distributed Denial of Service Attacks within our network 
infrastructure before they affect service to our customers. Indeed, 
part of the investment I described above is targeted to advancing our 
attack mitigation capabilities. We doubled, and are now redoubling, our 
ability to provide global coverage to scrub for denial-of-service 
attacks. We went from one domestic scrubbing complex to multiple 
locations across the United States, as well as nodes in Europe and 
Asia. This gives us the ability to filter out attack traffic as close 
to the source of the threat as possible.
    To address the growing cyber threat to our nation, and in 
particular the threat of botnets, three actions are recommended. First, 
our Federal procurement process needs to be upgraded to implement 
sufficient security protections to deal with large-scale cyber-attack. 
The denial-ofservice threat, for example, is largely overlooked in most 
civilian agency networks. On the other hand, private sector companies 
like AT&T offer advanced services that can mitigate the threat of a 
denial-of-service attacks before they arrive on an agency's doorstep. 
Without a strategic emphasis to build strong cyber-security protections 
into the Federal requirements development process, however, those 
protections are unlikely to find their way into systems procurement 
requirements.
    A second recommended action involves international partnership 
during a cyber-attack. When a botnet is aimed at some critical asset, 
the servers controlling the attack might be scattered to the farthest 
reaches of the globe. The local service provider is thus in the best 
position to take suitable security action. But this requires 
international cooperation that has been so far inadequate. Such a 
course would be consistent with the recent recommendations by the 
National Security Telecommunications Advisory Committee (NSTAC) that 
international coordination receive prioritized attention. Specifically, 
NSTAC recommended that the Federal Government pursue development of 
international cyber-incident warning and responsible capabilities since 
network attacks or incidents originating outside of the United States 
raise increasing concerns about the security and availability of 
domestic national security and emergency preparedness communications. 
In many ways, the international paradigm reflects the flaws in the 
current, domestic security paradigm--international coordination on 
incident response remains largely ad hoc. The continuing absence of a 
coordinated, scalable, international structure for response that 
includes all relevant stakeholders undercuts efforts to develop 
systemic solutions and responses.
    Finally, our government should rethink its own relationship with 
its network service providers. As attacks become more mobile and 
network-based, the service provider has the best vantage point to 
mitigate the threat. Too often, in our work at AT&T, we see government 
and business systems designed with the service provider at arms-length. 
This practice must be discouraged. In fact, agencies that run their own 
cyber-security operation should be ready to justify such decision. They 
cannot stop network threats such as botnets on their own.
    To this end, we endorse the several NSTAC recommendations that 
encourage such relationship rethinking. We believe that the public and 
private sectors can and should create structures for timely and secure 
sharing of cyber-security threat and response information between 
government and industry, and between and among critical infrastructures 
in a trusted, collaborative environment. In partnership with the 
private sector, the government can and should create a secure and 
responsive identity management framework to support cyber-based 
identity processes and applications, thereby ensuring emergency 
response access to critical infrastructure in support of disaster 
recovery. In collaboration with industry, the government can and should 
create a comprehensive incident-response architecture embracing 
critical infrastructure facilities and core infrastructure services. 
Perhaps most importantly, the government should collaborate with 
industry on research and development efforts in pursuit of critical 
cyber-security capabilities, and in furtherance of interoperable 
identity management processes between government and the private 
sector.
    To conclude, I am pleased that this Committee is focusing on cyber-
security, and looking forward to working with you to develop practical 
steps to ensure that cyber security does not threaten our Nation's 
present and future well-being.

    The Chairman. Thank you very much.
    Dr. Amoroso. You bet.
    The Chairman. You've written four books?
    Dr. Amoroso. Yes.
    The Chairman. Are they----
    Dr. Amoroso. But, Dr. Spafford's books are actually better 
than mine.
    [Laughter.]
    The Chairman. Are they? Well, then--I'm going to forget all 
about yours, then.
    [Laughter.]
    The Chairman. Dr. Spafford?

 STATEMENT OF DR. EUGENE H. SPAFFORD, PROFESSOR AND EXECUTIVE 
 DIRECTOR, PURDUE UNIVERSITY CENTER FOR EDUCATION AND RESEARCH 
IN INFORMATION ASSURANCE AND SECURITY (CERIAS) AND CHAIR OF THE 
 U.S. PUBLIC POLICY COMMITTEE OF THE ASSOCIATION FOR COMPUTING 
                       MACHINERY (USACM)

    Dr. Spafford. Thank you, Mr. Chairman and Members of the 
Committee.
    To put some of my comments in a little bit of context, I've 
been working in computing and computing security for about 30 
years, and I have done that in a number of different kinds of 
roles; certainly, as a researcher at a university; and some of 
the things that we have invented, that I've invented with my 
students, are in use worldwide right now, protecting systems. 
They're common security tools and methods. The students 
themselves have gone off to important roles. In fact, one of 
our most recent Ph.D. graduates serves the Sergeant at Arms of 
the Senate. And we have graduates who are working in a number 
of different Federal agencies.
    I have worked as a consultant and founder of commercial 
firms. And I have worked as a consultant for Federal agencies, 
including the U.S. Government Accountability Office, Air Force, 
the National Security Agency, the FBI, the National Science 
Foundation, and national labs. So, I have seen across a very 
broad spectrum of the places where cyber is used, and some of 
the problems involved.
    And the simplest way to state this is, the Nation is under 
attack, and it is a hostile attack, it is a continuing attack. 
It has been going on for years, and we have largely been 
ignoring it. The commercial losses, by best estimates, are in 
the tens of billions of dollars per year. To put that in 
context, imagine a Hurricane Katrina-style event occurring 
every year and being ignored.
    The classified largest--classified losses may be as large 
or even larger, because some of the things that are at risk 
can't really be easily valued in dollars. It's very difficult 
to value our national security and protection.
    There are a number of reasons why this has been ignored and 
why the problem continues. I would invite you to look in my 
written testimony; I have more material there.
    But, one of the issues that we have to face is, this is not 
primarily a network problem, it is a computing problem, it is 
the endpoints, it is the computer systems people use, it is the 
cell phones, the control nodes, and the other items, that 
people are breaking into. The network is a conduit and has some 
of its own problems, but computing is a much bigger problem 
than simply the Internet.
    Second, there are no single easy solutions. It is not 
simply a technology problem, where we can come up with a fix 
and apply it. Too many people think that's the case.
    Security is a process. It's an ongoing process akin to 
having policemen on the beat or having patrols off the coast. 
We have to continue to fund and be vigilant and improve what we 
do in defense.
    Cybersecurity is a combination of technology, of policy, 
and of knowledge and people. And we have problems in all three 
areas. Again, I address some of this in my written testimony.
    Part of the problem in policy is the fact that we haven't 
done much at all to put up a deterrent. We do not strike back 
at those who attack our systems. If they are criminal elements, 
our law enforcement doesn't have the tools, the manpower, or, 
very often, the authority to go after those individuals. And 
so, they continue to make millions of dollars per week--some of 
the credit card fraud--and they reinvest that in new tools, far 
more than we are investing in development of defensive tools 
here in this country.
    For nation-state type of attacks, we don't apply any of the 
kinds of diplomatic or economic pressures that we might be able 
to do to try to discourage that behavior.
    So, we're going to have to have some improvements in 
technology. We're going to have to have improvements in the 
knowledge and people involved. And this is an area I addressed 
extensively in my written testimony.
    But, let me say something about the technology, because 
that's an area that I've worked in so much. The current view, 
that security can be had by adding something on afterwards or 
by applying patches to problems, simply won't work. It has not 
worked. It will not work. If we continue our current approach 
to producing and buying technology, we are going to continue to 
be vulnerable.
    We need to apply more funding and support to research. And 
the research can't be near-term, let's-come-up-with-a-patch-
for-the-latest-botnet-or-the-latest-firewall-problem, but long-
term research as to how to fundamentally redesign some of the 
systems we're using and the security involved. That funding has 
to be continuing, and it should go toward some risky ideas, 
because if we aren't approaching risky ideas, we're not likely 
to come up with the breakthrough ideas that are necessary.
    Such kinds of research are done at, largely, universities, 
but also at the national labs, as has been noted, and many 
independent firms that do have research arms. These not only 
produce results and experience, but they produce people, people 
who can go on and be faculty members, can be researchers to 
found companies, serve in the government and other places.
    So, our investment in research, even if the research 
results don't always produce something that we can use, do have 
a benefit in the long term for the country and the economy and 
the knowledge base, but it must be significant and sustained
    When I was a member of the PITAC, the report we issued in 
2005 indicated that we believed at least a tripling of the 
research budget at that time was necessary. There was actually 
a slight decrease. Current funding could probably stand a many-
times-over increase.
    Let me point out that this is not simply a Federal problem, 
but a national problem. We're going to have to have other 
parties step up. It's not something that the Federal Government 
can solve all by itself. And it's actually an international 
problem, as has been noted. We have friends around the world 
whose banking systems, telecommunications systems, supply 
systems, healthcare, and other public infrastructure, are 
threatened. If the oil wells offshore from some of the 
countries we're friends with are compromised because their 
control systems are corrupted, it could have a devastating 
impact on our economy. We cannot afford to be insular in our 
thinking.
    In closing, I included a well-known aphorism in my 
testimony that I've seen attributed to a number of different 
authors, John Dryden, the English playwright, being one of 
them, that insanity is doing the same thing over and over again 
and expecting different results. Our cybersecurity application, 
particularly in the government, has been insane for years. You 
have a chance to change that.
    Thank you for your attention. I look forward to your 
questions.
    [The prepared statement of Dr. Spafford follows:]

 Prepared Statement of Dr. Eugene H. Spafford, Professor and Executive 
   Director, Purdue University Center For Education and Research in 
   Information Assurance and Security (CERIAS) and Chair of the U.S. 
       Public Policy Committee of the Association For Computing 
                           Machinery (USACM)
Introduction
    Thank you Chairman Rockefeller and Ranking Member Hutchison for the 
opportunity to testify at this hearing.
    By way of self-introduction, I am a Professor at Purdue University. 
I also have courtesy appointments in the departments of Electrical and 
Computer Engineering, Philosophy, and Communication at Purdue, and I am 
an adjunct professor at the University Texas at San Antonio. At Purdue, 
I am also the Executive Director of the Center for Education and 
Research in Information Assurance and Security (CERIAS). CERIAS is a 
campus-wide multidisciplinary institute, with a mission to explore 
important issues related to protecting computing and information 
resources. We conduct advanced research in several major thrust areas, 
we educate students at every level, and we have an active community 
outreach program. CERIAS is the largest such center in the United 
States, and we were recently ranked as the #1 such program in the 
country. CERIAS also has a close working relationship with dozens of 
other universities, major commercial firms and government laboratories.
    Along with my role as an academic faculty member, I also serve on 
several boards of technical advisors, and I have served as an advisor 
to Federal law enforcement and defense agencies, including the FBI, the 
Air Force and the NSA. I was also a member of the most recent 
incarnation of the President's Information Technology Advisory 
Committee (PITAC) from 2003 to 2005. I have been working in information 
security for over 25 years.
    I am also the Chair of USACM, the U.S. public policy committee of 
the ACM. With over 90,000 members, ACM is the world's largest 
educational and scientific computing society, uniting educators, 
researchers and professionals to inspire dialogue, share resources and 
address the field's challenges. USACM acts as the focal point for ACM's 
interaction with the U.S. Congress and government organizations. It 
seeks to educate and assist policy-makers on legislative and regulatory 
matters of concern to the computing community.
    USACM is a standing committee of the ACM. It tracks U.S. public 
policy initiatives that may affect the membership of ACM and the public 
at large, and provides expert input to policy-makers. This advice is in 
the form of non-partisan scientific data, educational materials, and 
technical analyses that enable policy-makers to reach better decisions. 
Members of USACM come from a wide-variety of backgrounds including 
industry, academia, government, and end users.
    My testimony is as an expert in the field. My testimony does not 
reflect official positions of either Purdue University or the ACM, 
although I believe that my comments are consistent with values and 
positions held by those organizations.
General Comments
    Our country is currently under unrelenting attack. It has been 
under attack for years, and too few people have heeded the warnings 
posed by those of us near the front lines. Criminals and agents of 
foreign powers have been probing our computing systems, defrauding our 
citizens, stealing cutting-edge research and design materials, 
corrupting critical systems, and snooping on government information. 
Our systems have been compromised at banks, utilities, hospitals, law 
enforcement agencies, every branch of the armed forces, and even the 
offices of the Congress and White House. Although exact numbers are 
impossible to obtain, some estimates currently run in the tens to 
hundreds of billions of dollars per year lost in fraud, IP theft, data 
loss, and reconstitution costs. Attacks and losses in much of the 
government and defense sector are classified, but losses there are also 
substantial.
    Over the last few decades, there have been numerous reports and 
warnings of the problems issued. When I was a member of the PITAC in 
2003-2005, we found over a score carefully-researched and well-written 
reports from research organizations that highlighted the dangers and 
losses, and pointed out that the problem was only going to get worse 
unless drastic action is taken. Our own report from the PITAC, Cyber 
Security: A Crisis of Prioritization, published in 2005, echoed these 
concerns but was given scant attention. Other reports, such as Toward a 
Safer and More Secure Cyberspace by the National Academies have 
similarly been paid little attention by leaders in government and 
industry. Meanwhile, with each passing week, the threats grow in 
sophistication and number, and the losses accumulate.
    I do not mean to sound alarmist, but the lack of attention being 
paid to these problems is threatening our future. Every element of our 
industry and government depends on computing. Every field of science 
and education in our country depends, in some way, on computing. Every 
one of our critical infrastructures depends on computing. Every 
government agency, including the armed forces and law enforcement, 
depend on computing. As our IT infrastructure becomes less trustworthy, 
the potential for failures in the institutions that depend on them 
increases.
    There are a number of reasons as to why our current systems are so 
endangered. Most of the reasons have been detailed in the various 
reports I mentioned above and their lists of references, and I suggest 
those as background. I will outline some of the most significant 
factors here, in no particular order:

  <bullet> Society has placed too much reliance on marketplace forces 
        to develop solutions. This strategy has failed, in large part, 
        because the traditional incentive structures have not been 
        present: there is no liability for poor quality, and there is 
        no overt penalty for continuing to use faulty products. In 
        particular, there is a continuing pressure to maintain legacy 
        systems and compatibility rather than replace components with 
        deficient security. The result is a lack of reward in the 
        marketplace for vendors with new, more trustworthy, but more 
        expensive products.

  <bullet> Our computer managers have become accustomed to deploying 
        systems with inherent weaknesses, buying add-on security 
        solutions, and then entering a cycle of penetrate-and-patch. As 
        new flaws are discovered, we deploy patches or else add on yet 
        new security applications. There is little effort devoted to 
        really designing in security and robustness. This also has 
        contributed to unprotected supply chains, where software and 
        hardware developed and sold by untrusted entities is then 
        placed in trusted operational environments: the (incorrect) 
        expectation is that the add-on security will address any 
        problems that may be present.

  <bullet> There is a misperception that security is a set of problems 
        that can be ``solved'' in a static sense. That is not correct, 
        because the systems are continuing to change, and we are always 
        facing new adversaries who are learning from their experiences. 
        Security is dynamic and changing, and we will continue to face 
        new challenges. Thus, protection is something that we will need 
        to continue to evolve and pursue.

  <bullet> Too few of our systems are designed around known, basic 
        security principles. Instead, the components we do have are 
        optimized for cost and speed rather than resilience and 
        security and those components are often needlessly complex. 
        Better security is often obtained by deploying systems that do 
        less than current systems--extra features not necessary for the 
        task at hand too often provide additional avenues of attack, 
        error, and failure. However, too few people understand cyber 
        security, so the very concept of designing, building, or 
        obtaining less capable systems, even if they are more 
        protected, is viewed as unthinkable.

  <bullet> We have invested far too little on the resources that would 
        enable law enforcement to successfully investigate computer 
        crimes and perform timely forensic activities. Neither have we 
        pursued enough political avenues necessary to secure 
        international cooperation in investigation and prosecution of 
        criminals operating outside our borders. As a result, we have 
        no effective deterrent to computer crime.

  <bullet> The problems with deployed systems are so numerous that we 
        would need more money than is reasonably available simply to 
        patch existing systems to a reasonable level. Unfortunately, 
        this leads to a lack of funding for long term research into 
        more secure systems to replace what we currently have. The 
        result is that we are stuck in a cycle of trying to patch 
        existing systems and not making significant progress toward 
        deploying more secure systems.

  <bullet> Over-classification hurts many efforts in research and 
        public awareness. Classification and restrictions on data and 
        incidents means that it is not possible to gain an accurate 
        view of scope or nature of some problems. It also means that 
        some research efforts are inherently naive in focus because the 
        researchers do not understand the true level of sophistication 
        of adversaries they are seeking to counter.

  <bullet> Too little has been invested in research in this field, and 
        especially too little in long-term, risky research that might 
        result in major breakthroughs. We must understand that real 
        research does not always succeed as we hope, and if we are to 
        make major advances it requires taking risks. Risky research 
        led to computing and the Internet, among other things, so it is 
        clear that some risky investments can succeed in a major way.

  <bullet> We have too many people who think that security is a network 
        property, rather than understanding that security must be built 
        into the endpoints. The problem is not primarily one of 
        ``Internet security'' but rather of ``computer and device'' 
        security.

  <bullet> There is a common misconception that the primary goal of 
        intruders is to exfiltrate information or crash our systems. In 
        reality, clever adversaries may simply seek to modify critical 
        applications or data so that our systems do not appear to be 
        corrupted but fail when relied upon for critical functions--or 
        worse, operate against our interests. We seldom build and 
        deploy systems with sufficient self-checking functions and 
        redundant features to operate correctly even in the presence of 
        such subversion.

  <bullet> Government agencies are too disorganized and conflicted to 
        fully address the problems. Authorities are fragmented, laws 
        exist that prevent cooperation and information sharing, and 
        political ``turf'' battles all combine to prevent a strong, 
        coordinated plan from moving forward. It is debatable whether 
        there should be a single overarching authority, and where it 
        should be if so. However, the current disconnects among 
        operational groups including DHS, law enforcement, the armed 
        forces and the intelligence community is a key part of the 
        problem that must be addressed.

  <bullet> We have too few people in government, industry and the 
        general public who understand what good security is about. This 
        has a negative effect on how computing is taught, designed, 
        marketed, and operated. I discuss this in more depth later in 
        this testimony.

    I would be remiss not to note that most systems handling personal 
information have also been poorly designed to protect privacy. Good 
security is necessary for privacy protection. Contrary to conventional 
wisdom, it is not necessary to sacrifice privacy considerations to 
enhance security. However, it takes additional effort and expense to 
design to both protect privacy and improve security, and not everyone 
is willing to make the effort despite the rewards.
    This battle is global. Our colleagues in other countries are also 
under siege from criminals, from anarchists, from ideologues, and from 
agents of hostile countries. Any effective strategy we craft for better 
cyber security will need to take into account that computing is in use 
globally, and there are no obvious national borders in cyberspace.
    Additionally, it is important to stress that much of the problem is 
not purely technical in nature. There are issues of sociology, 
psychology, economics and politics involved (at the least). We already 
have technical solutions to some of the problems we face, but the 
parties involved are unable to understand or agree to fielding those 
solutions. We must address all these other issues along with the 
technical issues if we are to be successful in securing cyberspace.
Rethinking Computing \1\
---------------------------------------------------------------------------
    \1\ Adapted from Rethinking computing insanity, practice and 
research, CERIAS Weblog, December 15, 2008, <http://
www.cerias.purdue.edu/site/blog/post/rethinking_computing_
insanity_practice_and_research/>. In turn, this post was derived from 
my essay in the October 2008 issue of Information Security magazine.
---------------------------------------------------------------------------
    Fifty years ago, IBM introduced the first commercial all-transistor 
computer (the 7000 series). A working IBM 7090 system with a full 32K 
of memory (the capacity of the machine) cost about $3,000,000 to 
purchase--over $21,000,000 in current dollars. Software, peripherals, 
and maintenance all cost more. Rental of a system (maintenance 
included) could be well over $500,000 per month. The costs of having 
such a system sit idle between jobs (and during I/O) led the community 
to develop operating systems that supported sharing of hardware to 
maximize utilization. It also led to the development of user accounts 
for cost accounting and development of security features to ensure that 
the sharing didn't go too far. As the hardware evolved and became more 
capable, the software also evolved and took on new features.
    Costs and capabilities of computing hardware have changed by a 
factor of tens of millions in five decades. It is now possible to buy a 
greeting card at the corner store with a small computer that can record 
a message and play it back to music: that card has more memory and 
computing power than the multimillion dollar machine of 1958. Yet, 
despite these incredible transformations, the operating systems, data 
bases, languages, and more that we use are still basically the designs 
we came up with in the 1960s to make the best use of limited equipment. 
We're still suffering from problems known for decades, and systems are 
still being built with intrinsic weaknesses.
    We failed to make appreciable progress with the software because, 
in part, we've been busy trying to advance on every front. It is 
simpler to replace the underlying hardware with something faster, thus 
getting a visible performance gain. This helps mask the ongoing lack of 
quality and progression to really new ideas. As well, the speed with 
which the field of computing (development and application) moves is 
incredible, and few have the time or inclination to step back and re-
examine first principles. This includes old habits such as the sense of 
importance in making code ``small'' even to the point of leaving out 
internal consistency checks and error handling. (Y2K was not a one-time 
fluke--it was instance of an institutionalized bad habit.)
    Another such habit is that of trying to build every system to have 
the capability to perform every task. There is a general lack of 
awareness that security needs are different for different applications 
and environments; instead, people seek uniformity of OS, hardware 
architecture, programming languages and beyond, all with maximal 
flexibility and capacity. Ostensibly, this uniformity is to reduce 
purchase, training, and maintenance costs, but fails to take into 
account risks and operational needs. Such attitudes are clearly 
nonsensical when applied to almost any other area of technology, so it 
is perplexing they are still rampant in IT.
    For instance, imagine the government buying a single model of 
commercial speedboat and assuming it will be adequate for bass fishing, 
auto ferries, arctic icebreakers, Coast Guard rescues, oil tankers, and 
deep water naval interdiction--so long as we add on a few after-market 
items and enable a few options. Fundamentally, we understand that this 
is untenable and that we need to architect a vessel from the keel 
upwards to tailor it for specific needs, and to harden it against 
specific dangers. Why cannot we see the same is true for computing? Why 
do we not understand that the commercial platform used at home to store 
Aunt Bea's pie recipes is not equally suitable for weapons control, 
health care records management, real-time utility management, storage 
of financial transactions, and more? Trying to support everything in 
one system results in huge, unwieldy software on incredibly complex 
hardware chips, all requiring dozens of external packages to attempt to 
shore up the inherent problems introduced by the complexity. Meanwhile, 
we require more complex hardware to support all the software, and this 
drives complexity, cost and power issues.
    The situation is unlikely to improve until we, as a society, start 
valuing good security and quality over the lifetime of our IT products. 
We need to design systems to enforce behavior within each specific 
configuration, not continually tinker with general systems to stop each 
new threat. Firewalls, intrusion detection, antivirus, data loss 
prevention, and even virtual machine ``must-have'' products are used 
because the underlying systems aren't trustworthy--as we keep 
discovering with increasing pain. A better approach would be to 
determine exactly what we want supported in each environment, build 
systems to those more minimal specifications only, and then ensure they 
are not used for anything beyond those limitations. By having a 
defined, crafted set of applications we want to run, it will be easier 
to deny execution to anything we don't want; To use some current 
terminology, that's ``whitelisting'' as opposed to ``blacklisting.'' 
This approach to design is also craftsmanship-using the right tools for 
each task at hand, as opposed to treating all problems the same because 
all we have is a single tool, no matter how good that tool may be. 
After all, you may have the finest quality multitool money can buy, 
with dozens of blades and screwdrivers and pliers. You would never 
dream of building a house (or a government agency) using that 
multitool. Sure, it does many things passably, but it is far from ideal 
for expertly doing most complex tasks.
    Managers will make the argument that using a single, standard 
component means it can be produced, acquired and operated more cheaply 
than if there are many different versions. That is often correct 
insofar as direct costs are concerned. However, it fails to include 
secondary costs such as reducing the costs of total failure and 
exposure, and reducing the cost of ``bridge'' and ``add-on'' components 
to make items suitable. There is less need to upgrade and patch smaller 
and more directed systems far less often than large, all-inclusive 
systems because they have less to go wrong and don't change as often. 
There is also a defensive benefit to the resulting diversity: attackers 
need to work harder to penetrate a given system, because they don't 
know what is running. Taken to an extreme, having a single solution 
also reduces or eliminates real innovation as there is no incentive for 
radical new approaches; with a single platform, the only viable 
approach is to make small, incremental changes built to the common 
format. This introduces a hidden burden on progress that is well 
understood in historical terms--radical new improvements seldom result 
from staying with the masses in the mainstream.
    Therein lies the challenge, for researchers and policy-makers. The 
current cybersecurity landscape is a major battlefield. We are under 
constant attack from criminals, vandals, and professional agents of 
governments. There is such an urgent, large-scale need to simply bring 
current systems up to some minimum level of security that it could soak 
up way more resources than we have to throw at the problems. The result 
is that there is a huge sense of urgency to find ways to ``fix'' the 
current infrastructure. Not only is this where the bulk of the 
resources is going, but this flow of resources and attention also fixes 
the focus of our research establishment on these issues, When this 
happens, there is great pressure to direct research toward the current 
environment, and toward projects with tangible results. Program 
managers are encouraged to go this way because they want to show they 
are good stewards of the public trust by helping solve major problems. 
CIOs and CTOs are less willing to try outlandish ideas, and cringe at 
even the notion of replacing their current infrastructure, broken as it 
may be. So, researchers go where the money is--incremental, ``safe'' 
research.
    We have crippled our research community as a result. There are too 
few resources devoted to far-ranging ideas that may not have immediate 
results. Even if the program managers encourage vision, review panels 
are quick to quash it. The recent history of DARPA is one that has 
shifted toward immediate results from industry and away from vision, at 
least in computing. NSF, DOE, NIST and other agencies have also 
shortened their horizons, despite claims to the contrary. 
Recommendations for action (including the recent CSIS Commission report 
to the President) continue this by posing the problem as how to secure 
the current infrastructure rather than asking how we can build and 
maintain a trustable infrastructure to replace what is currently there.
    Some of us see how knowledge of the past combined with future 
research can help us have more secure systems. The challenge continues 
to be convincing enough people that ``cheap'' is not the same as 
``best,'' and that we can afford to do better. Let's see some real 
innovation in building and deploying new systems, languages, and even 
networks. After all, we no longer need to fit in 32K of memory on a $21 
million computer. Let's stop optimizing the wrong things, and start 
focusing on discovering and building the right solutions to problems 
rather than continuing to try to answer the same tired (and wrong) 
questions. We need a major sustained effort in research into new 
operating systems and architectures, new software engineering methods, 
new programming languages and systems, and more, some with a (nearly) 
clean-slate starting point. Failures should be encouraged, because they 
indicate people are trying risky ideas. Then we need a sustained effort 
to transition good ideas into practice.
    I'll conclude with a quote that many people attribute to Albert 
Einstein, but I have seen multiple citations to its use by John Dryden 
in the 1600s in his play The Spanish Friar: ``Insanity: doing the same 
thing over and over again expecting different results.''
    What we have been doing in cyber security has been insane. It is 
past time to do something different.
Education
    One of the most effective tools we have in the battle in cyber 
security is knowledge. If we can marshal some of our existing knowledge 
and convey it to the appropriate parties, we can make meaningful 
progress. New knowledge is also necessary, and there too there are 
urgent needs for support.
History
    In February 1997, I testified before the House Science Committee. 
At that time, I observed that nationally, the U.S. was producing 
approximately three new Ph.Ds. in cybersecurity \2\ per year. I also 
noted that there were only four organized centers of cyber security 
education and research in the country, that none of them were very 
large, and that all were judged to be somewhat at risk. Indeed, shortly 
after that testimony, one of the centers dissolved as institutional 
support faded and faculty went elsewhere.
---------------------------------------------------------------------------
    \2\ This and related numbers in my report exclude individuals 
working primarily in cryptology. Although cryptography is necessary for 
good security, there is a difference between those who study the 
mathematics of codes and ciphers, and those who study systems and 
network security; the two general areas are related much in the way 
mathematicians and mechanical engineers are.
---------------------------------------------------------------------------
    Although the number of university programs and active faculty in 
this area have increased in the last dozen years, the number involved 
and the support provided for their efforts still falls far short of the 
need. As an estimate, there have been less than 400 new Ph.Ds. produced 
in cyber security in the U.S. over the last decade with some nontrivial 
percentage leaving the U.S. to work in their countries of origin. 
(Approximately 25 percent of those graduates have come from CERIAS at 
Purdue.) Of those that remained, less than half have gone back into 
academia to be involved in research and education of new students.
    In my testimony \3\ in 1997 and in subsequent testimony in 2000, I 
provided suggestions for how to increase the supply of both students 
and faculty in the field to meet the anticipated demand. Three of my 
suggestions were later developed by others into Federal programs: the 
Centers of Academic Excellence (CAE), the Scholarship for Service 
program, and the Cyber Trust program.
---------------------------------------------------------------------------
    \3\ Available online <http://spaf.cerias.purdue.edu/usgov/
index.html>
---------------------------------------------------------------------------
    Today, we have about a dozen major research centers around the 
country at universities, and perhaps another two dozen secondary 
research groups. Many, but not all, of these institutions are certified 
as CAEs, as are about 60 other institutions providing only specialized 
cyber security education. The CAE program has effectively become a 
certification effort for smaller schools offering educational programs 
in security-related fields instead of any true recognition of 
excellence; there are some highly regarded programs that do not belong 
to the CAE program for this reason (Purdue and MIT among them). One 
problem with the way the CAE program has evolved is that it does not 
provide any resources that designated schools may use to improve their 
offerings or facilities.
    The Scholarship for Service program, offered through NSF, has been 
successful, but in a limited manner. This program provides tuition, 
expenses and a stipend to students completing a degree in cyber 
security at an approved university. In return, those students must take 
a position with the Federal Government for at least 2 years or pay back 
the support received. Over the last 7 years, over 1000 students have 
been supported under this program at 30 different campuses. The 
majority of students in these programs have, indeed, gone on to Federal 
service, and many have remained there. That is an encouraging result. 
However, the numbers work out to an average of about four students per 
campus per year entering Federal service, and anecdotal evidence 
indicates that demand is currently five times current production and 
growing faster than students are being produced. This program address 
needs in other segments of U.S. society.
    NSF has been the principal supporter of open university research in 
cyber security and privacy through its Cyber Trust program (now called 
Trustworthy Computing). That effort has produced a number of good 
results and supported many students to completion of degrees, but has 
been able to support only a small fraction (perhaps less than 15 
percent) of the proposals submitted for consideration. Equally 
unfortunate, there has been almost no support available from NSF or 
elsewhere in government for the development and sustainment of novel 
programs that are not specifically designated as research; as an 
example, CERIAS as an important center of education, research and 
outreach has never received direct Federal funding to support core 
activities, staff, and educational development. If it were not for 
periodic gifts from generous and civic-minded industrial partners, the 
center would have disappeared years ago--and may yet, given the state 
the economy. Other defined centers are similarly precariously funded.
Future
    We need significant, sustained efforts in education at every level 
to hope to meet the challenges posed by cyber security and privacy 
challenges. In the following, I will outline some of the general issues 
and needs, with some suggestions where Federal funding might be 
helpful. A study by an appropriate organization would be necessary to 
determine more precisely what program parameters and funding levels 
would be useful. Given the complexity of the issues involved, I can 
only outline some general approaches here.
    Let me note that many of these activities require both a ramp-up 
and sustainment phase. This is especially true for postgraduate 
programs. We do not currently have the infrastructure to switch into 
``high gear'' right away, nor do we have the students available. 
However, once students are engaged, it is disruptive and discouraging 
to them and to faculty if resources and support are not provided in a 
steady, consistent fashion.
    I will start by reiterating my support for the existing Scholarship 
for Service program. It needs to include additional funding for more 
students, and to allow recipient institutions to pursue curricular 
development and enhancement, but is otherwise functioning well.
K-12
    Our children are the future. We should ensure that as they are 
being taught how to use the technology of tomorrow that they also are 
getting a sound background in what to do to be safe when using 
computers and networks. We teach children to cover their mouths when 
they sneeze, to wash their hands, and to look both ways when they cross 
the street--we should also ensure that they know something about 
avoiding phishing, computer viruses, and sharing their passwords. Older 
students should be made familiar with some of the more complex threats 
and issues governing computing especially privacy and legal 
implications.
    Avenues for teaching this material certainly include the schools. 
However, too many of our Nation's schools do not currently offer any 
computing curriculum at all. In many schools, all that is taught on 
computers is typing, or how to use the WWW to research a paper. Many 
states have curricula that treat computing as a vocational skill rather 
than as a basic science skill. Without having a deeper knowledge of the 
fundamentals of computing it is more difficult to understand the issues 
associated with privacy and security in information technology. Thus, 
teaching of computing fundamentals at the K-12 level needs to be more 
widespread than is currently occurring, and the addition of cyber 
security and privacy material nationally should be considered as part 
of a more fundamental improvement to K-12 education. Recently the 
leaders of the computing community released recommendations on how the 
Federal Government's Networking and Information Technology Research and 
Development (NITRD) Program could be strengthened to address shortfalls 
in computer science education at the K-12 level.\4\
---------------------------------------------------------------------------
    \4\ http://www.acm.org/public-policy/NITRD_Comment_final.pdf
---------------------------------------------------------------------------
    Consideration should be given to encouraging various adjunct 
educational opportunities. Children's TV is one obvious venue for 
conveying useful information, as is WWW-based delivery.
    Computing has a significant diversity problem. Cyber security and 
privacy studies appear, anecdotally, to be very attractive to students 
from underrepresented groups, including females. Presenting meaningful 
exposure to these topics at the K-12 level might help encourage more 
eager, able young people to pursue careers in those or related STEM 
fields.
Undergraduate Degrees
    Of the thousands of degree-granting institutions throughout the 
U.S., perhaps only a few hundred have courses in computer security 
basics. These courses are usually offered as an elective rather than as 
a part of the core curriculum. As such, basic skill such as how to 
write secure, resilient programs and how to protect information privacy 
are not included in standard courses but relegated to the elective 
course. This needs to change or we will continue to graduate students 
who do not understand the basics of the area but who will nonetheless 
be producing and operating consumer computing artifacts.
    More seriously, we have a significant shortfall of students 
entering computing as a major area. Last year was the first year in six 
where the enrollment of undergraduates in CS did not decline. The 
significance of this concern is not only important from a national 
competitiveness stand-point, but it implies that we will have a 
significant shortfall of trained U.S. citizens in the coming years to 
operate in positions of national responsibility. We are already off-
shoring many critical functions, and without an increase in the U.S. 
production of computing majors, this will pose a significant national 
security threat.
Graduate Degrees
    There is disagreement within the field about the level of education 
needed for some positions in the work force. Clearly, there is a range 
of positions, some of which may only require an under-graduate degree, 
but many that require at least a Master's degree. Some educators 
(myself included) believe that a strong undergraduate degree in 
computing or software engineering, or in some other field related to 
cyber security (e.g., criminal justice), should be obtained followed by 
a graduate degree to ensure appropriate depth of knowledge.
    There continues to be a need for Ph.D. graduates in cyber security. 
Individuals at this level are needed for advanced concept development 
in academia, industry and government. Generally, a Ph.D. is also 
required for faculty positions and some senior technical supervisory 
positions. Given the strong demand in this field and the number of 
institutions with need of faculty with experience in security or 
privacy topics, there will undoubtedly be a continuing and increasing 
demand for graduates at this level.
    One of the issues facing researchers in academia is the lack of 
access to current commercial equipment. Most funding available to 
researchers today does not cover obtaining new equipment. Universities 
also do not have sufficient resources to equip laboratories with a 
variety of current products and then keep them maintained and current. 
As a result, unless faculty are adept at striking deals with vendors 
(and few vendors are so inclined) they are unable to work with current 
commercial security products. As a result, their research may not 
integrate well with fielded equipment, and may even be duplicative of 
existing solutions. The situation is in some senses similar to that of 
the 1980s when major research institutions were able to seek grants to 
get connections to research networking, but has evolved to a point 
where almost every college and university has network access. We now 
need a program to fund the instantiation of experimental laboratories 
for cyber security with a cross-section of commercial products, with an 
eventual goal of having these be commonplace for teaching as well as 
research.
    Some faculty and their students are willing and able to work on 
classified problems so long as that work is near enough to their home 
institution to make travel reasonable. The best solution is to have a 
facility on campus capable of supporting classified research. This is 
not common on today's campuses.\5\ It is not inexpensive to build or 
retrofit a facility for classified processing, and it is costly to 
staff and maintain it. Research grants almost never cover these costs. 
A Federal program to identify institutions where such facilities would 
be useful, and then build and support them might be helpful.
---------------------------------------------------------------------------
    \5\ As an example, I need to travel over 70 miles from Purdue to be 
able to find a cleared facility.
---------------------------------------------------------------------------
    To produce graduate students requires resources for stipends, 
laboratory equipment, and general research support, as well as support 
for the faculty advisors. Given university overhead costs, it will 
often cost more than $250,000 over a period of years for a graduate 
student to complete a Ph.D. That support must be consistent, however, 
because interruptions in funding may result in students leaving the 
university to enter the work force. Additionally, there needs to be 
support for their advisors, usually as summer salary, travel, and other 
expenses. Here again, consistency (and availability) are important. If 
faculty are constantly worried about where the money will come from for 
the coming year, some will choose to leave the field of study or 
academia itself.
Other Disciplines
    Computing is not the only area where advanced research can and 
should occur. As noted earlier, the cyber security ``ecology'' includes 
issues in economics, law, ethics, psychology, sociology, policy, and 
more. To ensure that we have an appropriate mix of trained individuals, 
we should explore including training and support for advanced education 
and research in these areas related to cyber security and privacy. 
Encouraging scholars in these areas to work more closely with computing 
researchers would provide greater synergy.
    On possibility that should be explored is to expand the current 
Scholarship for Service program in a manner that includes students 
taking advanced degrees with a mix of cyber studies and these other 
areas; as an example, the program might fund students who have 
completed an undergrad in cyber security to obtain a J.D., or a student 
with a degree in public policy obtaining an M.S. in cyber privacy. Upon 
graduation those individuals would be highly qualified to enter 
government service as policy experts, prosecutors, investigators, and 
other roles where there is currently an urgent and growing need for 
multidisciplinary expertise.
Training
    There are many people working in the IT field today who have 
security and privacy as one of their job functions. Given the pace of 
new tool development, best practices, new threats, and other changes, 
it is necessary that these individuals receive periodic training to 
stay current with their positions. Many 3rd-party organizations are 
currently providing such training (although the expense per student is 
significant), but as demand grows it seems unlikely that these efforts 
will scale appropriately. It is also the case that not all individuals 
who currently need such training either know they need it, or can 
afford it.
    There should be an effort made, perhaps through DHS and/or the 
Department of Education, to provide ongoing training opportunities to 
the workforce in a cost-effective and timely manner. This might be by 
way of some mechanism that is delivered over the Internet and/or 
through community colleges. ``Train the trainer'' opportunities should 
be considered as well.
    Note that this is not the same as continuing education as it 
assumes that the students involved already know how to perform their 
jobs. Rather, this is training in new tools and techniques to enable 
individuals to stay current in their positions.
Adult Education
    The majority of citizens today using personal computers do not know 
anything about computer security, yet they are common targets for fraud 
and abuse. Phishing, Spam, and botnets are all generally targeted at 
home computers. Most people do not know that they need additional 
knowledge about security, and those that do are often unsure where to 
go to obtain that knowledge.
    This is an area where many different techniques could be employed. 
Having educational modules and resources available online for citizens 
to review at their leisure would seem to be an obvious approach. 
Providing incentives and materials for ISPs, community groups, public 
libraries, and perhaps state and local governments to offer courses and 
information would be another possibility. Public television is yet 
another avenue for education of the general population about how to 
defend their computing resources.
    Coupled with this effort at citizen education might be some program 
to provide access and ratings of products that could be obtained and 
deployed effectively. Unfortunately, there are many ineffectual 
products on the market, and some that are actually malicious in the 
guise of being helpful. Providing resources for citizens to get product 
details and up-to-date information on what they should be doing could 
make a large difference in our national cyber security posture.
Professional Education
    We have many people in professional roles who use computers in 
their work, but who were not exposed to computing education during 
their formal studies. These positions include law enforcement 
personnel, judges, doctors, lawyers, managers, C-level executives, 
bankers, and more. In these various professions the individuals need 
education and training in cyber security and privacy basics as they 
relate to their jobs. They also need to be made aware that lack of 
security has real consequences, if not for their organizations, then 
for the country, and that it should be taken seriously.
    Many professional organizations already provide organized training 
along these lines; for example, the National White Collar Crime Center 
(NW3C) offers courses for law enforcement personnel. Mechanisms need to 
be developed to help scale these offerings and motivate more 
professionals to take them. Where no such courses are available they 
need to be developed in conjunction with experienced and competent 
advisors who understand both the material involved and the issues 
specific to the professions.
Concluding Remarks
    The cyber security problem is real. Informed warnings have been 
large ignored for years, and the problems have only gotten worse. There 
is no ``silver bullet'' that will solve all our problems, nor are 
solutions going to appear quickly.
    Any program to address our problems will need to focus on 
deficiencies in our regulatory system, in the economic incentives, and 
in user psychology issues as well as the technical issues. We need a 
sustained, significant research program to address questions of 
structure, deployment, and response. We need a significant boost to law 
enforcement to act as an effective deterrent. Most of all, we need a 
comprehensive and wide-reaching program of education and training to 
bring more of the population in line to address the problem than the 
small number of experts currently involved.
    Thus, there needs to be a significant investment made in both 
students and research in cyber security and privacy. The PITAC report 
made a conservative recommendation of tripling available research 
funding per year in 2005, although the committee privately discussed 
that 4-5 times the base could be productively spent. We noted that much 
of the money designated as R&D funding is really spent on the ``D'' 
portion and not on research. In the years since that report, it is 
unlikely that the amount has more than doubled, and that is due, in 
part, to standard inflationary issues and across-the-board increases 
rather than any targeted spending.
    A conservative estimate for FY 2010 would similarly be to at least 
triple the current allocation for basic research and for university 
fellowships, with some nontrivial fractions of that amount dedicated to 
each of privacy research, cyber forensics tools and methods for law 
enforcement, to cyber security infrastructure, and to multidisciplinary 
research. Equal or increasing amounts should be allocated in following 
years. An additional annual allocation should be made for community and 
professional education. This is almost certainly less than 1 percent of 
the amount lost each year in cyber crime and fraud in the U.S. alone, 
and would be an investment in our country's future well-being. Again, 
it is important to separate out the ``R'' from the ``R&D'' and ensure 
that increases are made to the actual long-term research rather than to 
short term development.
    There must be a diverse ecology of research funding opportunities 
supported, with no single agency providing the vast majority of these 
funds. Opportunities should exist for a variety of styles of research 
to be supported, such as research that is more closely aligned with 
specific problems, research that is better coordinated amongst larger 
numbers of investigators, research that involves significant numbers of 
supporting staff beyond the PI's, and so on. The NITRD Coordination 
Office is well-suited to assist with coordination of this effort to 
help avoid duplication of effort.
    There are many good topics for research expenditures of this order 
of magnitude and beyond. As already mentioned, there are numerous 
problems with the existing infrastructure that we do not know how to 
solve including attribution of attacks, fast forensics, stopping 
botnets, preventing spam, and providing supply chain assurance. More 
speculative tasks include protecting future architectures including 
highly portable computing, developing security and privacy metrics, 
creating self-defending data, semi-autonomous system protection, 
building high-security embedded computing for real-time controls, and 
beyond. The PITAC report listed 10 priority areas, and the National 
Academies report lists more. The community has never had a shortage of 
good topics for research: it has always been a lack of resources and 
personnel that has kept us from pursuing them.
    Above all, we must keep in mind two important facts: First, 
protection in any realm, including cyber, is a process and not a goal. 
It is an effort we must staff and support in a sustainable, ongoing 
manner. And second, as with infections or growth of criminal 
enterprises, a failure to appropriately capitalize the response now 
will simply mean, as it has meant for over two decades, that in the 
future the cost will be greater and the solutions will take longer to 
make a difference.
References
    1. Cyber Security: A Crisis of Prioritization; Report from the 
President's Information Technology Advisory Committee; National 
Coordination Office, NITRD; 2005.
    2. Toward a Safer and More Secure Cyberspace; Seymour E. Goodman 
and Herbert S. Lin, Editors; National Academy Press; 2007.
    3. Unsecured Economies: Protecting Vital Information; McAfee 
Corporation; 2008.
    4. Security Cyberspace for the 44th Presidency; Center for 
Strategic & International Studies; 2008.
Acknowledgements
    I wish to acknowledge comments and assistance provided to me in 
preparing this testimony from Becky Bace, Steve Cooper, Dan Geer, Harry 
Hochheiser, Lance Hoffman, Carl Landwehr, Ed Lazowska, Victor 
Piotrowski, Bobby Schnable, Carlos Solari and Cameron Wilson. Despite 
listing their names here, none of those individuals necessarily agrees 
with, nor endorses any of my comments or opinions.

    The Chairman. Thank you.
    Senator Nelson, will you change that? Good. OK.
    Extremely good presentations. I apologize, again, for the 
lack of attendance. I just use all the other meetings going on, 
but I don't know how somebody would manage to not be here.
    You've talked, the four of you, about saying that you 
produce teachers, and government labs produce people who go 
into universities, and the rest of it. On the other hand, I 
think you, Dr. Lewis, said that we don't have anybody learning 
anything about this. Senator Snowe and I are putting together a 
bill which would emphasize, and we would welcome anybody's 
cosponsorship, and she's from the Intelligence Committee, and 
Senator Nelson is from the Intelligence Committee. You said 
people pass through engineering and they just simply never come 
across the word ``cyber'' problems. And I'm wondering how you 
think this can be changed.
    I mean, one, we've got to change the way the private sector 
looks at it. That would be my second question. I just put out 
the first, but, second, how do we begin to train a body of 
people? This ought to be the most fascinating, cerebral, 
national-security, I'm-a-good-American problem that exists. 
But, it's not attracting people. Why?
    Dr. Lewis. A couple of reasons. First, you know, we've had 
a larger decline across the board--and I know this Committee is 
well aware of it--in science, technical education, engineering, 
mathematics. We've underfunded it for years, and now we're 
reaping the benefit. I was at a classified briefing, a couple 
of months ago, where we were comparing how foreign countries 
were doing to the United States. And it used to be we were 
ahead. And in the briefing we had a couple of months ago, the 
foreign countries had caught up, and somebody said, ``How did 
that happen?'' And the answer is, ``Well, if you don't spend 
the money for 15 years, they're going to catch up.''
    So, what I would say--and I think this fits in with Dr. 
Spafford's remarks--the way to get more students is to pay 
people, to give them incentives to go into this. It is 
fascinating, but we know that students sit down and say, ``How 
am I going to make a living?'' And right now we don't have the 
demand for it. So, fund people to go in; that would be a great 
idea. Think about things like competitions; that would help. 
And get industry to pay attention to this so there will be 
demand at the receiving end.
    The Chairman. Well, then why doesn't that work? It's 
manifestly self-evident for big and small companies. I think 
AT&T and Verizon and others are pretty familiar with it. It 
just cries out for the smartest, most creative people, who can 
make a huge difference in the future of their country.
    Dr. Lewis. We've been having--I'll just say, quickly--we've 
been having a discussion with some of the people working in the 
government on this about what we call the ``conversion 
experience.'' And it's like that Saul-on-the-road-to-Tarsus 
moment, where the light bulb goes over your head. And we're 
trying to figure out how many people have realized this is a 
major national security problem. And I don't think enough have, 
is the short answer.
    Dr. Spafford. Sir, I'll add to this. This year, nationwide, 
we probably have about 50 or 60 new Ph.D.s in the field, total. 
And of those, perhaps 10 to 15 are going to return to their 
home countries to start businesses to compete against the U.S., 
because our visa policies won't let them stay. Of the remaining 
45, about half will go into industry, possibly to startups, and 
the remaining will go into university environments, where they 
will be teaching classes and perhaps creating a new generation 
of students. But, that means that we have perhaps an annual 
increment of 15 to 20 new faculty a year for thousands of 
educational institutions across the country, and tens of 
thousands of commercial organizations. The numbers are way too 
small. And in part it is--as Dr. Lewis noted, we are not 
portraying an image that this is an exciting career path, or 
one that is--they can make a living at. Instead, we hear about 
how jobs are going offshore to other companies--other 
countries, how we don't have enough people in the stem 
disciplines. For many years, some of our best students went off 
to become bankers and lawyers. Maybe not our best students, 
considering what happened, but----
    [Laughter.]
    Dr. Spafford.--nonetheless, those career paths seem to be 
much more attractive.
    So, there's a--it's a total issue.
    The Chairman. Yes.
    Dr. Amoroso. Mr. Chairman, I would offer just an--a 
personal note. When I was a high school student, it was right 
around the time that Arno Penzias and Bob Wilson won the Nobel 
Prize for the Big Bang Theory, and Bob Wilson came and gave a 
talk to my science club or high school--something like that. 
And it was about the most inspiring thing I ever saw, and I 
decided I wanted to go to Bell Laboratories. And there were a 
group of people in my generation that really wanted to do that.
    I think we've skipped a generation since then. I've noted, 
in my prepared remarks, that I've been an adjunct professor at 
Stevens Institute of Technology for 20 years. My graduate class 
right now is about 98 percent foreign national, and we're 
teaching cybersecurity to non-Americans.
    I think we have a unique opportunity, though. Everyone in 
this room, when we were young, you amused yourself, probably, 
outside, running around. What do kids amuse themselves with 
now? Xbox and computer games and so on. We've got a generation 
of youngsters who, I think, are ripe and ready for careers in 
this area, and I think legislation should take full advantage 
of that and try and attract these youngsters into careers in 
the areas that were noted.
    The Chairman. Our legislation will.
    Senator Udall?
    Senator Udall. Thank you, Mr. Chairman.
    I think some of you have touched on this a little bit, but 
I'd like you to go into more depth for me. Are we confident, in 
the United States, that the U.S. infrastructure, whether it's a 
power grid or the telephone networks, as you've described, Dr. 
Amoroso, with AT&T, our oil and gas infrastructure, our 
infrastructure on our airlines, controlling airlines in the 
air--are we confident that we can withstand a major cyberattack 
to these kinds of networks? And what are the scenarios you see 
if we had an attack? What scenarios would follow from there?
    Dr. Weiss. Let me answer that question. In fact, if you'd 
bear with me, can I just go back to what you were asking 
before, and then I'll directly answer?
    Senator Udall. [Inaudible.]
    Dr. Weiss. I'm kind of, in a sense, a fish out of water, 
not being a traditional IT person. I'm a control-system 
engineer. One of our big problems is, when you look at the 
cybersecurity centers of excellence, they're in the computer 
science departments, they are not in the electrical engineering 
department, they are not in the chemical engineering 
department, they are not in the mechanical engineering 
department, they are not in the nuclear engineering department. 
So, part of what we have is this very much of a dichotomy 
between what people normally associate with a computer and what 
we, in industry, use as computers. And I go back to the fact 
that they are very different.
    I ended up getting a master's, through University of 
Washington, on strategic planning for critical infrastructures. 
Our textbook on cybersecurity was written by Matt Bishop, from 
U.C. Davis, and it was dated 2003. It was a 1,000-page college 
textbook. The words ``SCADA'' or ``control system'' were not 
mentioned once. We are--it's a different area. It is a very, 
very interdependent, functional type of discipline that needs 
to be there, and it isn't. So, I just wanted to bring that into 
play.
    And the other thing, too, is, one of the differences in 
industry, if you will, is, this is a huge business issue, as 
well as security issue. And part of our problems can be 
unintentional cyberincidents. They can have almost the same 
impact--shutting down nuclear plants, you know, having pipeline 
ruptures. These have already happened. They weren't 
intentional, but it still shut down plants, killed people, et 
cetera. Part of it is because we don't have adequate training, 
we don't have adequate standards. So, I just wanted to go back.
    Now, if you'll--if you will, I'll address what you were 
asking.
    Our systems were initially designed--were originally, and 
still, to this day, designed--for performance. Security is an 
add-on. Are our systems vulnerable? They're very vulnerable. 
The issue, to me, is--and this is another aspect, too--some of 
our biggest control-system cyberincidents did not come from the 
Internet and did not come from Windows. They were control-
system issues. These control-system issues destroyed equipment, 
shut down plants. The Northeast outage lasted 3 days--actually, 
1 to 2 days, but I'm saying 3. And the reason is, there was no 
damage to equipment. When you damage equipment--I assume you've 
seen the tape of Aurora. This is where, by cyber alone, they 
destroyed a large diesel generator. Physically destroyed it. 
This is what we're talking about. It's destruction of equipment 
that takes months--many, many months to procure. And we don't 
even make that equipment in the U.S. anymore.
    So, when you're asking about international issues, think 
about, Where do we get those, and how do we know even what's 
going to be replaced, is going to do what we want, and maybe 
not have a Trojan embedded? This is a very, very difficult, 
complicated issue that I want to get across. It is very real. 
And it's not those laptops that you see that we're concerned 
about, it's equipment--very expensive, very long-term design-
and-procure equipment.
    Dr. Lewis. I take a little different view--I'll just jump 
in real quick--because I think--you know, the--one of the 
things you've heard is that there's a real risk here, and 
there's a real potential for damage. We want to make sure that 
doesn't happen. But, we're under attack right now. We're 
suffering losses. Sometimes people say we have to worry about 
an electronic Pearl Harbor. We probably had our electronic 
Pearl Harbor in 2007. And we might have had one in 1998 or 
1999. And, as you've heard from all of us, you know, we just 
kind of say, ``Oh, well, gee, that's too bad.'' You know? So, 
we are, every day, suffering big losses, and I don't know 
which--which loss do you want to talk about? Do you want to 
talk about breaking into NASA and stealing launcher designs? Do 
you want talk about stealth? Do you want to talk--what do you 
want to talk about?
    So, I worry more about the loss of information, and I think 
that's the attack--the beauty of this is, if you fix one, you 
sort of address the other. We do have to worry about the 
attacks on critical infrastructure, but right now we are 
being--I don't know what the right word is--``robbed,'' I 
guess; ``robbed'' would be the right word--by foreign entities, 
of our most valuable technology, and we have to stop that.
    So, I'm not worried about some crisis in the future. I'm 
worried about the crisis we're in now.
    The Chairman. Senator Nelson?

                STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. By the way, Dr. Lewis, we could not even 
get the NASA IG to investigate the stealing of those rocket 
designs through the Internet at NASA.
    Dr. Weiss, you're right, they did that demonstration 
project, known as Aurora through digital means to hack into the 
power plant's generator and cause it to shut down.
    We've got a serious problem in national security. I have 
the privilege of serving with the immediate past chairman of 
the Intelligence Committee, and we see it there. For example, 
Defense Daily has just written that hackers are managing to 
invade our military computer systems, though the defenses are 
competent to stymie most of the attempts. This is what General 
Chilton, the Strategic Command commander, says, ``Every day, 
there are attempts to penetrate our network, some of which are 
successful, but many, many more are defeated.''
    This Senator's office computers have been invaded three 
times in the last month, and one of them looks pretty serious, 
as if it's talking to a computer in some international arena.
    Dr. Amoroso, you mentioned in your statement, about the 
Times report today on Conficker. It infected a large number of 
computers and turned that into one of the largest botnets.
    How should the private sector best deal with this type of 
problem, when it's so fast-moving that you get a result and you 
get a defense in a matter of days or even hours? Should we go 
to the National Institute of Standards and Technology, to set 
some sort of baseline cybersecurity standards or set up some 
kind of best practices? What should we do?
    Dr. Amoroso. I have some thoughts on that. I think there 
are two things you need to do.
    First off, you need a stopgap, because we can't do research 
to solve a problem that could happen in the next hour. Need 
something that will deal with the problem immediately. And I 
believe the network is the place to do that. So, most of the 
international and domestic carriers have these big--you can 
think of them as, like, a big sponge that can absorb energy, or 
like a big old shock absorber in the network, so when the 
Conficker botnet is being aimed at the Department-of-This, or 
this or that agency, or some company, we can soak up all that 
energy. Now, again, that is a stopgap. That works today. That's 
how we stop attacks now. You know, plumbers sitting in the 
bowels of our network, basically, with these, you know, big 
shock absorbers.
    The long-term solution is, we've got to fix computing. I 
think Dr. Spafford is right. I mean, we've got a lot of broken 
software out there, including the software that's probably 
running on your computers. You click an ``I Accept'' button 
when you install it, and if you read that language, it 
basically says, ``This computer is--you know, this software 
doesn't work, you know, and you're accepting all the risk.'' 
So, I think a lot of our research activity needs to be directed 
to fixing the endpoints.
    So, stopgap, near term, primarily focused on network; 
research, long term, primarily focused on computing. And I 
think that's the right approach for our Nation.
    Senator Nelson. Well, Mr. Chairman, I'll conclude and just 
say that I think, in our subcommittee, as I serve you and the 
full Committee, that we want to look at NIST and the NSF, at 
new opportunities for them to examine these questions that have 
been raised this morning.
    Thank you.
    The Chairman. Thank you, Senator Nelson.
    And, in fact, in Olympia Snowe's and my bill, which I hope 
that you'll all cosponsor, we go very aggressively after this 
question, and through the National Science Foundation, of 
awarding scholarships, just anything we can, to attempt to get 
people into the field and get them stimulated. NIST is this 
national treasure which nobody here ever goes to visit. You 
can't--you can't sort of do NIST from a distance, you've got to 
be there, you've got to talk. I remember going, 20 years ago, 
and they said they hadn't seen a Senator in 5 years. It was a 
bit depressing.
    So, my question to you, you've got this question of 
penetration testing. I like that phrase. It's the proactive 
probing and testing of cyberdefense. The idea behind conducting 
penetration testing is to better now where our vulnerabilities 
are. There are a lot of companies that probably know this, but 
I don't know what kinds of companies are aware of their 
vulnerabilities. It's a very basic, naive question. I'm pretty 
sure that the majority have absolutely no idea of what they 
are. So, question number one, How do you reach out, the 
government can't do this advertising like DOD can, saying 
they're being hacked into 3 million times a day, and people 
just pass over that, how do you reach out to the private 
sector, which is going through tough times, but will be going 
through far tougher times if they're not alert to this, and get 
them aware of it? How do you do it? One, you've got to get 
students interested. It's just shocking to hear you say that 
they're not. How do you get business to inventory itself? Or, 
if you don't, does NIST do it?
    Dr. Weiss. Can I respond to a couple of your questions?
    One is, there is----
    The Chairman. You'll have time, Doctor.
    Dr. Weiss. OK. In the electric industry, there are 
currently some requirements--they're not near as comprehensive 
as they should be, but they do attempt to drive that.
    But, I wanted to mention one other thing, because I keep 
going back to this. An industrial control system is very 
different than an IT system. You had mentioned penetration 
testing. Penetration testing is fine for a traditional 
business-type IT system or network. If you penetration test a 
legacy control system, you will shut it down or kill it. You 
will be your own hacker. We've had this happen often, not just 
throughout the U.S., but all over the world.
    Part of what we need to do is develop--and again, think 
about this for the Smart Grid, too--when you start talking 
about these legacy devices, these are not your Microsoft 
operating systems, these are your legacy devices--this is, 
again, what would be designed by a chemical engineer or an 
electrical engineer, a mechanical engineer, a nuclear engineer. 
We need to have a set of, essentially, testing criteria and 
assessment criteria specific to that. And training needs to be 
there for that. And I go back to--curricula needs to be there 
for that. And I just want to mention this, because too often 
we're lumped with everybody else, ``Go do what everybody else 
is doing.'' It will shut us down.
    The Chairman. Well, the reason I'm asking it is because 
sometimes you don't have the time to start a generation of 
people on their way. You have to do it. And it's an absolute 
priority. A number of years ago when some of this began to be 
talked about, I got all of our chemical companies on the Ohio 
River to come together, and I said, ``How are you protecting 
yourselves? You're on the water. By definition, your 
penetration is easy.'' And then I met with them again, a year 
or so later, and they had put sidearms on the hip of the people 
who were on the other side of the chemical plant who were 
letting the workers in.
    Now, that was shocking to me. That was shocking to me. 
These are very sophisticated chemical companies, and I don't 
understand why they're not onto this.
    Voice: Mr. Chairman?
    The Chairman. Oh, no. Maria, I've got to shut up, because 
three votes just started, and Maria's got a much better 
question than I did.
    Senator Cantwell. I don't know about that, Mr. Chairman, 
but I have enjoyed--well, I actually haven't enjoyed the 
discussion; I think it's been a very enlightening panel, but it 
is pretty disgusting that we've had more people trying to cook 
up exotic toxic assets than willing to spend their time killing 
bugs on the Internet. So, it is a poor statement about where 
people have been lured.
    But, Dr. Weiss, back to your point about control systems 
and the curriculum. And we're proud that you're a U Dub alum. 
What kind of curriculum are you talking about, from the sense 
of power system engineering or----
    Dr. Weiss. Well----
    Senator Cantwell.--control systems? Obviously you know, in 
the Northwest, with so many hydroelectric dams, we get the fact 
that hacking that system is a----
    Dr. Weiss. Yes.
    Senator Cantwell.--big problem.
    Dr. Weiss. Yes. And it's--by the way, it's all over. I 
mean, because everybody has industrial systems. But, I've given 
lectures at the University of Illinois. I gave one at 
Mississippi State. I've given one--or at the Naval Post-Grad at 
National Defense University. The issue that we need----
    Senator Cantwell. Are we talking about a 4-year degree in 
control systems, or are you talking about a basic computer 
science----
    Dr. Weiss. No, what I'm really looking at is two things. 
One is just, maybe, a semester or a quarter dealing with this, 
because, within the chemical engineering department or within 
nuclear, you're going to have courses on control-system theory. 
You don't have that, if you will, in computer science. Computer 
science will have everything pointed toward traditional IT.
    Senator Cantwell. So, are you saying that this is an add-on 
program to either computer science or----
    Dr. Weiss. I see it as a joint----
    Senator Cantwell.--power-system engineering or----
    Dr. Weiss. I see it as a joint effort, because you can't 
divorce the computer science part. This is computers. But, for 
our world, you can't--you can't divorce the science from it, 
either.
    Senator Cantwell. Can we go to NIST and what----
    Dr. Weiss. Sure.
    Senator Cantwell.--exactly do you think needs to--needs to 
happen, as far as security standards at NIST, and how we get 
there, given that there's obviously a lot of organizations, 
like the IEEE and others, that are involved in standard-
setting, and they can help in creating a framework for 
government to get at this sooner.
    Dr. Weiss. Let me, if you'll bear with me, explain where 
this came from. It was the law of unintended consequences. And 
that was FISMA--you know, the Federal Information Security 
Management Act--is a Federal law for all Federal agencies, and 
NIST developed, you know, the framework, NIST SP 800-53, et 
cetera. The law of unintended consequences was, people didn't 
realize one of the Federal agencies happened to have been the 
Tennessee Valley Authority, with coal-fired power plants and 
hydro plants and nuclear plants and dams. The other thing they 
didn't realize is that the Bonneville Power Administration is a 
Federal agency. And what was happening is, when those agencies 
tried to use the existing IT standards, which was what NIST SP 
800-53 was, they failed their IT security audits, because they 
weren't appropriate. So, what we ended up doing--I was actually 
under contract to MITRE, supporting NIST on this--is, we went 
back and we looked at--because I am a member of IEEE and ISA 
and all of the other organizations--and what we did was to look 
at what was missing in those standards that needed to be 
included for industrial control systems, and then we extended 
NIST SP 800-53 to address that.
    And then what we did is something beyond that. We went back 
and looked at things like the Bellingham, Washington, gasoline 
pipeline rupture, the Browns Ferry Nuclear Plant broadcast 
storm, et cetera. And we asked, ``Now that we've done this, 
would--if you would have followed the NIST standards, would you 
have been able to prevent that?'' So, we looked at this to 
basically say, ``Is this going to be usable?''
    Senator Cantwell. So, we don't have standards for control 
systems in place, or--and we don't have a mechanism for 
updating them, either, as new facilities come online or as new 
technology is introduced.
    Dr. Weiss. Well, these are systems--and, again, I keep--I 
hate to keep coming back to the point, they're different--these 
systems have lifetimes of 10 to 20 years. These are not 3 to 5 
years, like with your traditional IT. So, once you put these 
in, you are not going to replace them, no matter what you find, 
in terms of vulnerabilities. We have to work around that.
    Dr. Lewis. Just quickly, NIST has two big problems. OK? 
Problem one, we're still in sort of a compliance culture, you 
know, ``Here's your paper plan. Did you live up to your paper 
plan? Hey, that's great.'' And we all know, from FISMA, that 
you can get a good FISMA grade and still be totally insecure. 
So, we have to move out of the compliance mode to something 
else, and sometimes people talk about attack-based metrics or 
metrics that are based on what's actually happening, and not on 
some piece of paper.
    The second big problem NIST has is that the offense does 
not inform the defense. Now, it does a little, but it doesn't 
adequately. So, we know what's going on in the offensive world. 
We even have offensive people, ourselves. But, they don't hook 
up with NIST and they don't help NIST write their standards.
    And so, if you could fix those two things----
    Senator Cantwell. And is fixing that having people feel 
comfortable in having that dialogue, that issue about----
    Dr. Lewis. Yes, they're----
    Senator Cantwell.--legal vulnerability? Is that----
    Dr. Lewis. Exactly right.
    Senator Cantwell.--right.
    Dr. Lewis. There are some legal impediments that I think 
we'll have to look at, laws that might have made sense in the 
1980s, but may not work in the more interconnected world we're 
in today.
    Senator Cantwell. You know, I think this is a very 
important issue, Mr. Chairman, in the sense that, you know, you 
get an operating system, people beat on it for months and 
months and months and months, and try to break the system 
before it's really introduced. But, you're saying, on a system 
that meets the basic compliance, doesn't have that kind of 
stress test to it, and then doesn't have the advancements and 
technology checked up, as well. It sounds like we need a much 
more robust system at NIST.
    Dr. Lewis. Robust and nimble. And I think Dr. Spafford's 
remarks pointed out that the people who are our opponents, they 
pay a lot of attention to this, they spend a lot of money, and 
they come up with new attack vectors every week, if not every 
month.
    Senator Cantwell. But, what is that, what's the ``nimble'' 
part? What would the ``nimble'' part be in a structure like 
that?
    Dr. Lewis. ``Nimble'' would be paying attention to what's 
actually happening now on the networks, paying attention to, 
``What are the attacks that are succeeding?'' and adjusting the 
standards to make sure that that's what you're protecting 
against. This is going to be hard, because, in some ways, the 
NIST process is--I love NIST, but it's a--can be a little 
stately, at time. And the criminals, the nation-states we're 
going against, they evolve very quickly. So, ``nimble'' means 
finding a way to make the NIST standards a bit more responsive 
to external events.
    Dr. Spafford. I would just like to add----
    The Chairman. And quickly, because----
    Dr. Spafford. Yes, sir--that one of the things----
    The Chairman. Like, 1 minute.
    Dr. Spafford.--that I really should stress, if we want to 
respond is, we need to look to our law enforcement community, 
not so much--standards are certainly going to help, but 
standards are a minimum, always. What we really need to do is, 
we also have to have a deterrent capability for our commercial 
marketplace. Many of the things that are going on are basically 
criminal, and if we could deter that, increase the risk for 
those criminals, it would go a long way toward helping fix the 
situation.
    Senator Cantwell. And international cooperation on catching 
them.
    Dr. Spafford. That would definitely be part of it.
    Senator Cantwell. Thank you, Mr. Chairman. Thank you for 
this important hearing.
    The Chairman. Thank you, Senator Cantwell.
    And I'll just close it by thanking all of you. Again, I'm 
mortified by the lack of attendance, but, you know, such is 
life. That's why I had to scream and yell to try to get Maria 
back, because she's a real IT expert, Senator Cantwell.
    This is going to be the first of a number of hearings on 
this subject. We're going to drive it home. We've got to raise 
the profile of cybersecurity, we've got to get the President, 
after the 60-day review, is it Melissa who's doing that?, to 
get the person; and then, behind that there's probably got to 
be an advisory board so that it's just pounding in on the 
President, who happens to love this kind of subject. You know, 
thank heavens for that. I mean, he knows about it, but he needs 
to know a lot more about it, and I think he'll be very 
proactive. And then, the creativity for the long-term 
solutions, and promote public awareness, and protect civil 
liberties, which always have to be a part of it, as I remember 
from the FISA debate.
    But, what you've given us is a very, very excellent first-
hearing set of analysis, and we are the better for it, and we 
thank you.
    Hearing is adjourned.
    [Whereupon, at 11:17 a.m., the hearing was adjourned.]
                            A P P E N D I X

  Response to Written Questions Submitted by Hon. Olympia J. Snowe to 
                           Dr. James A. Lewis
    Question 1. The Internet has revolutionized some many different 
areas of society and the economy. The innovation, adoption, and sheer 
size of the Internet are simply unparalleled. The Internet currently 
comprises of more than 1.5 billion users, 570 million computers, and 
174 million websites. However, we will eventually enter a new iteration 
of the Internet with the migration from IPv4, a 32-bit addressing 
space, to IPV6, a 128-bit addressing, which provides 5 x 10 \28\ IP 
addresses for every individual on earth (or 6.5 x 10 \23\ addresses for 
every square meter of the earth's surface). In addition, Internet 
Corporation for Assigned Names and Numbers (ICANN) plans to allow the 
expansion of generic top level domains from the current 21 domains to 
eventually hundreds if not thousands. Both of these efforts as well as 
others present amazing opportunity and potential for the evolution of 
the Internet but also present significant challenges with 
cybersecurity.
    What will this eventual expansion of IP addresses and domains mean 
with respect to cybersecurity and threats? With domain name system 
techniques such as fast fluxing, pharming, DNS cache poisoning, being 
used by botnets, it could present an even greater challenge because 
there is even a greater pool of resources available, right?
    Answer. We've built an insecure global network. Now we are 
expanding to include more people, more devices and more services. We 
don't have adequate mechanisms to manage risk, and ``Internet 
governance'' is weak. If we continue on the same path, risk will only 
increase. ICAO (the International Civil Aviation Organization) which 
sets minimum standards for civil aviation, may be a good precedent for 
thinking about national will have to cooperate.

    Question 2. The first sentence of Cisco's 2008 Annual Security 
Report states ``Compared to previous years, online criminals are 
becoming even more sophisticated and effective, employing a greater 
number of relatively smaller, more targeted campaigns to gain access to 
sensitive data.'' Another report by IBM's Internet Security Systems X-
Force Team highlighted that the number of new malicious Websites in the 
fourth quarter of 2008 alone surpassed the number seen in the entirety 
of 2007 by 50 percent and that new categories of threats affecting 
clients are on the rise, specifically in the areas of malicious 
documents, multimedia applications, and potentially Java applications 
which are easy to host on the Web.
    It seems that tackling the issue of cyber threats is a little bit 
like ``whack-a-mole,'' in that you discover and fix one vulnerability 
but then due to the sophistication and resourcefulness of the 
criminals, ten more cyberattacks pop-up. So how can we realistically 
deal with this, which seems to be a perpetually increasing problem?
    Answer. The best approach is to stop playing whack-a-mole, a 
reactive game where you let the enemy set the agenda, to a proactive 
approach that starts to reshape the cyber environment. We need a 
national policy that blends improved technology, international 
engagement, regulation and standards and consumer training. A holistic 
approach or a comprehensive approach is the only way to get out of the 
``whack-a-mole'' cycle.

    Question 3. The IBM report stated that of ``all the [cyber] 
vulnerabilities disclosed in 2008, only 47 percent can be corrected 
through vendor patches.'' Last April, the New York Times reported 
thousands of corporate executives were targets of a phishing attack 
that attempted to install malware on the recipients' computers. 
Security experts found that less than 40 percent of antivirus programs 
were able to identify and stop the attack. Cisco's report mentioned 
that criminals are getting access to computers and networks by 
exploiting weaknesses in technologies, software, and systems.
    Is the software industry really performing the necessary due 
diligence to make sure their products are up to par with respect to 
security or do security concerns/vulnerabilities take a back seat to 
getting the product or next version out in the market? It seems as if, 
with all the patches, that the industry does not have the foresight to 
proactively fill the holes, correct?
    Answer. Some IT companies perform due diligence and some don't. A 
coordinated approach that held companies to common standards or to 
shared best practices would help reduce many easy avenues for attack. 
The Government can help companies cooperate, use its purchasing power 
to drive improvement, and consider regulation where necessary. One way 
to think about this is the automobile industry--we give Americans some 
minimal training, but the real reason the rate of fatal accidents has 
decreased is because cars are built more safely. At first, car 
companies resisted safety improvements, but after the government 
mandated some basic requirements, they now compete to provide safer 
cars. We need to start the same dynamic for the Internet.

    Question 4. With the countless web applications, add-ons, software, 
shareware, how can we imbed a ``best practices'' or set of 
cybersecurity standards that better protect users and their computers 
from vulnerabilities or cyberattacks? A criminal can target a seemingly 
innocuous web browser add-on application to gain access to one's 
computer or a network, right?
    Answer. The only way to make the cyber environment more secure is 
to use a combination of tactics and approaches--better law enforcement, 
international cooperation, improved products, and increased consumer 
awareness. This is like any other crime--we can never eliminate crime 
but we can significantly decrease the rate of crime and the rewards to 
criminals.

    Question 5. While a notable percent of threats and attacks 
originate here domestically, the vast majority come from overseas. The 
2007 cyberattacks on DOD, DHS, and Commerce were all initiated by 
unknown foreign entities. China is most prolific host of malicious 
Websites. Russia, with the Russian Business Network (RBN), is a hot-bed 
of activity.
    We can certainly do a lot to address the domestic threats as well 
as to protect our borders, but what can we specifically do across our 
borders to address the source of the attacks?
    Answer. We need a comprehensive approach that takes action in the 
intelligence, diplomatic and law enforcement spheres. We can shape the 
international environment to be more secure if we engage--this will 
happen automatically and the ad hoc and erratic approach the U.S. has 
taken in the past only guarantees failure. Stronger law enforcement 
cooperation, a visible deterrent policy and a diplomatic strategy that 
creates norms for international behavior and, perhaps, sanctions for 
noncompliance can reduce cross-border threats. The U.S. needs to 
integrate cybersecurity into all of its foreign policy engagement and 
not treat it as an afterthought.

    Question 6. As you may know, Chairman Rockefeller and I created the 
E-rate program, which provides discounted telecommunications services 
to schools and libraries, as an amendment to the Telecommunications Act 
of 1996. The E-rate program has been instrumental in making Internet 
access available to schools and libraries--before the program, only 14 
percent of schools had Internet access. Today, nearly 100 percent of 
America's schools, 94 percent of individual classrooms, and 98 percent 
of public libraries are now wired. Internet access and information 
technology have truly enhanced the learning environment and process as 
well as better prepared our students for entering the digital global 
economy. With E-rate, students are learning how to use the Internet as 
a research tool, for collaborating on assignments and projects with 
individuals in other geographical locations, and downloading homework--
the list goes on.
    However, various studies and surveys indicate that students have a 
false sense of security when using the Internet--they're often too lax 
in their security with usernames/passwords and they more readily 
provide personal information online. Are we doing enough for K-12 
students in teaching them about cybersecurity? It seems we could do a 
lot more to infuse cybersecurity education into school's curriculum, do 
you agree?
    Answer. To continue the information highway analogy, just as we 
make students take driver's ed before they can venture out onto the 
roads, we need to think of some kind of reasonable cyber training. 
Cyber training should avoid hysteria and I am not recommending that we 
``license'' users, but since we as a nation are increasingly dependent 
on the use of the Internet, it is time to provide formal training on 
safe Internet use for students.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Olympia J. Snowe to 
                          Dr. Joseph M. Weiss
                                                     April 17, 2009
Senator Snowe:

    Thank you for the opportunity to respond to your very pertinent 
questions. Because of the subject matter's importance, I enlisted a 
distinguished group of information technology (IT) security, 
telecommunications, and control systems security experts to assist me 
in responding to your questions. This group includes Dr. Marshall 
Abrams, Mr. Walt Boyes, Mr. Jacob Brodsky, Mr. Eric Cosman, Mr. Philip 
Craig Jr., Mr. Lou Hatton, Mr. Marcus Sachs, Dr. Phyllis Schneck, Mr. 
Jonathan Stanford, and Mr. Robert Webb. It is our consensus view that a 
more effective oversight climate, which includes better standards and 
possibly new legislation and regulation, is needed.
    The responses are both general in nature and specific to my 
personal expertise in the area of cybersecurity for industrial 
automation and control systems (IACS). IACS are an integral component 
of our critical infrastructure. They are not as well understood and 
sometimes not as well-protected as the majority of our cyber assets and 
are among our most important assets. IACS are very different from 
office or enterprise IT systems, too. The security philosophy that 
works for office and enterprise IT systems is to save the servers, 
because that's where the data is. On the plant floor, the requirement 
is to preserve the real time operating systems and maintain IACS 
availability. That is, the fundamental difference between IT and IACS 
in addressing security is the best way to protect a security breach in 
IT is to STOP the flow of data and protect the servers whereas in IACS 
stopping the flow of data could be disastrous to the process and to 
safety. You can see how different the response of each sector to a 
cyber incident must therefore be.
    Security is hard work, often with no obvious short-term reward 
(e.g., an immediate impact on the bottom line). Therefore, people in 
every sector--public, private, traditional IT, and IACS--often avoid 
doing security. Those entrusted to improving security of cyber systems 
are often frustrated by their peers and management who do not believe 
cybersecurity is necessary or even important. Moreover, they feel 
frustration due to the amount of effort required to overcome 
organizational politics or other roadblocks so resources for 
improvements in technology, processes, and procedures can be brought to 
bear.
    According to the April 5, 2009 issue of The Washington Post, years 
after the Department of Interior had been warned its computer network 
was dangerously exposed to hackers--and ordered by a Federal judge to 
fix the problems--the vulnerabilities remained. New threats and threat 
agents arise continually, such as a recently indicted ex-employee of 
Pacific Energy Resources.\1\ After being informed he would not become a 
permanent employee, this individual compromised the leak detection 
systems of several off-shore oil platforms while being logged in from 
his home. With the emphasis on Smart Grid currently, it is important to 
note that on April 7, 2009, Michael Assante, Vice President and Chief 
Security Officer of the North American Electric Reliability Corporation 
(NERC), issued a letter concerning the inadequacy of the electric 
industry's approach to identifying critical assets under NERC 
cybersecurity standards.
---------------------------------------------------------------------------
    \1\ ``Feds: Hacker Disabled Offshore Oil Platforms' Leak-Detection 
System'', By David Kravets, March 18, 2009, wired.com, http://
blog.wired.com/27bstroke6/2009/03/feds-hacker-dis.html.
---------------------------------------------------------------------------
    We believe there should be an integrated team of IT and IACS 
professionals from the public and private sectors working on 
cybersecurity, with a dedicated leader who understands the issues and 
who preferably will not leave in a year.
    In conclusion, there is a need for a more effective oversight 
climate, which includes better standards and possibly new legislation 
and regulation, is needed.
    Please let me know if we can answer any questions or provide 
further input to support the proposed legislation.
            Respectfully,
                                       Joe Weiss, PE, CISM,
                     Applied Control Solutions, LLC, Cupertino, CA.
                                 ______
                                 
    Question 1. The Internet has revolutionized many different areas of 
society and the economy. The innovation, adoption, and sheer size of 
the Internet are simply unparalleled. The Internet currently comprises 
of more than 1.5 billion users, 570 million computers, and 174 million 
websites. However, we will eventually enter a new iteration of the 
Internet with the migration from IPv4, a 32-bit addressing space, to 
IPv6, a 128-bit addressing, which provides 5 x 10 \28\ IP addresses for 
every individual on earth (or 6.5 x 10 \23\ addresses for every square 
meter of the earth's surface). In addition, Internet Corporation for 
Assigned Names and Numbers (ICANN) plans to allow the expansion of 
generic top level domains from the current 21 domains to eventually 
hundreds if not thousands. Both of these efforts as well as others 
present amazing opportunity and potential for the evolution of the 
Internet but also present significant challenges with cybersecurity.
    What will this eventual expansion of IP addresses and domains mean 
with respect to cybersecurity and threats? With domain name system 
techniques such as fast fluxing, pharming, DNS cache poisoning, being 
used by botnets, it could present an even greater challenge because 
there is even a greater pool of resources available, right?
    Answer. By itself, the expansion of the IP addresses and domains 
does not increase or reduce the cyber vulnerabilities. However, an 
article titled ``IPv6 Security Challenges'' in the February 2009 issue 
of Computer, published by the IEEE Computer Society, raises multiple 
security issues associated with IPv6. While current attack 
methodologies might not work as well in a new world of virtually 
unlimited IP addresses and domain names, new technical problems will 
emerge that can be leveraged by criminals, terrorists, and state-
sponsored groups. The real issue is not the size of the address space, 
but whether there is a minimum security threshold that must be met. 
This is almost impossible to do retroactively, which is why standards 
are so important. Rather than taking the approach of connecting first 
and then trying to apply security, we have to start thinking in terms 
of systems and end-point capability. This can allow applying 
traditional IT security principles like defense-in-depth to systems 
having little or no defense at the present time. If a device or system 
cannot demonstrate a minimum level of security, it should never be 
connected to the network. Most importantly, we must realize that the 
principles of good security are only partially dependent on good 
technology. Users must adopt and use good technology, but equally 
important, they must adopt and use good security practices. Any 
security hardware or software can be rendered inadequate if users paste 
their passwords on post-it notes. Like today's world, it will continue 
to be an arms race to find and either exploit or mitigate problems.
    There is a quiet but significant risk with all IP addresses--they 
need to be treated with augmented privacy--analogous to the social 
security number, which until relatively recently wasn't considered as 
needing protection. The association of IP addresses to machine name or 
function provides a virtual roadmap to the underlying IP communications 
systems and connectivity. The case of the Associated Press (AP) v the 
State of Arkansas (Dec. 18 2008) marked the beginning of the press and 
public both wanting to use the Freedom of Information Act (FOIA) to 
obtain association of machine name and function with IP addresses. The 
court ruled against the AP in this case, but the AP filed an appeal. 
Going forward, this case could pose a threat if reversed. New 
addressing gives us a fresh chance to handle IP addresses more 
carefully.
    The corollary to this question is: ``Will a significant increase in 
the number of intelligent devices increase the cyber threat to the 
Smart Grid and other industrial applications?'' The answer is that this 
will significantly increase the ``threat space.'' Furthermore, many of 
these new devices are not designed to be cyber secure. Many legacy 
devices in industrial networks that will continue to be deployed for 
years were not designed with cybersecurity features. In fact, some of 
these devices, new and old, have been exploited already. It should also 
be noted that electric transmission, distribution, and power plants 
currently use mostly serial communications and will continue to use 
some amount of serial communications even with the Smart Grid. The 
greater the dependence on network connectivity, the greater the 
consequences will be when a network fails, or is deliberately used as 
an attack vector that targets specific communications or inter-
connected devices. Consider the August 2003 Northeast blackout, which 
was not a cyber initiated event. However, the consequences were 
enormous--estimated at over $7 billion. Imagine the consequences of 
such a blackout over most of the United States, with major power 
shortages lasting many months instead of a few days. You can begin to 
appreciate the potential increase in risk of a ``Smart Grid,'' 
dependent on thousands or millions of intelligent devices, all 
carefully managing power generation and usage. To be sure, much of our 
infrastructure has been very resilient and fault tolerant because it 
was diverse, independent, and not interconnected. The pervasive network 
connectivity envisioned in the expansion of the IP address space 
provides tremendous opportunities. But it also increases the possibly 
and consequences of such failures. Only by assuring significantly 
improved security, and an adequate level of independence and diversity 
in our critical infrastructure's cyber resources, can we minimize the 
possibility of such horrific events, and realize the advantages we 
anticipate gaining.
    Our experience in the last 5 years has shown that many 
organizations will not adopt adequate measures to assure security. 
Measurable security outcomes should be mandated by law in any cases 
where the infrastructure is critical to the well-being of our citizens. 
To be sure, the industry should be allowed to participate in 
determining how best to meet those requirements.
    The first sentence of Cisco's 2008 Annual Security Report states 
``Compared to previous years, online criminals are becoming even more 
sophisticated and effective, employing a greater number of relatively 
smaller, more targeted campaigns to gain access to sensitive data.'' 
Another report by IBM's Internet Security Systems X-Force Team 
highlighted that the number of new malicious Websites in the fourth 
quarter of 2008 alone surpassed the number seen in the entirety of 2007 
by 50 percent and that new categories of threats affecting clients are 
on the rise, specifically in the areas of malicious documents, 
multimedia applications, and potentially Java applications which are 
easy to host on the Web.

    Question 2. It seems that tackling the issue of cyber threats is a 
little bit like ``whack-amole,'' in that you discover and fix a single 
vulnerability but then due to the sophistication and resourcefulness of 
the criminals, ten more cyberattacks pop-up. So how can we 
realistically deal with this, which seems to be a perpetually 
increasing problem?
    Answer. One has to assume that most, if not all, networks and/or 
systems will be attacked and that we must provide a resilient 
capability. Resilience comes from the concept of defense-in-depth. It 
means that there should be layers of defense such as perimeter defense, 
network segmentation, and system isolation to the degree possible so 
that if one layer is penetrated others may provide protection. 
Technology and procedures must be developed to permit continued 
operations even while under attack. In fact, ``attack resiliency'' 
might become a new theme, replacing ``attack prevention'' as the focus 
of security operations.
    One of the key challenges with the Internet is that anyone, 
anywhere, can send any amount of traffic content to any destination--
and by virtue of the design of the Internet, the payload arrives, even 
if it causes a cyber train-wreck in its wake.
    Researchers, companies and governments worldwide have produced 
incredible science in identification of malicious Internet use (e.g., 
botnets) that disrupts the communications fabric that may be needed for 
critical operations. Public-private partnerships transcend national 
boundaries to identify and prosecute criminals behind Internet abuse. 
However, these efforts cannot respond in real-time, and do not solve 
the existing challenge of disabling malicious Internet traffic.
    The Internet communications fabric must be made more intelligent to 
not route and deliver malicious network traffic. In addition to saving 
bandwidth for both emergency and commercial use, this would kill the 
profit model for the botnet culture and severely lessen the 
effectiveness of distributed denial-of-service (DDoS) attacks.
    For IACS, that could even mean developing a dedicated network 
independent of the Internet--an ``Industry Net'' designed for the 
performance and security needs of industry. Again, one must remember 
that even with the move to IP communications, there will continue to be 
serial communications that also need to be addressed. Another reason 
resilience is important for industrial control systems is that their 
operating lifetimes are so long, typically 10 to 20 years or longer. 
These are not changed out because of cyber threats and consequently, 
restoration is of great concern.
    There are many similar challenges in the world today--defense 
against physical weapons and against evolving diseases are good 
examples. An excuse like ``but it is hard'' is not a reason to give up 
or ignore applicable threats. We can and must fight these threats with 
a combination of the best intelligence, the best technology, defense-
in-depth, and resilient and reconfigurable systems that can function 
without connectivity when isolation may be necessary. All of this must 
be integrated and flexible (so that new technologies are not 
precluded). Economic incentives or binding legal measures are needed so 
that critical components of the infrastructure's connectivity--be they 
hardware, software, or people--don't compromise the whole. The weakest 
link in the chain is currently an issue for the electric industry, 
where the Federal power entities are being held to higher standards 
(e.g., the Federal Information Security Management Act and related NIST 
standards such as Special Publication 800-53) than the non-Federal 
power entities (i.e., the North American Electric Reliability 
Corporation [NERC] Critical Infrastructure Protection [CIP] 
cybersecurity standards). That is, the non-Federal power entities are 
weak links that could cause failure of the Federal power entities, and 
that is plain wrong.
    The IBM report stated that of ``all the [cyber] vulnerabilities 
disclosed in 2008, only 47 percent can be corrected through vendor 
patches.'' Last April, the New York Times reported thousands of 
corporate executives were targets of a phishing attack that attempted 
to install malware on the recipients' computers. Security experts found 
that less than 40 percent of antivirus programs were able to identify 
and stop the attack. Cisco's report mentioned that criminals are 
getting access to computers and networks by exploiting weaknesses in 
technologies, software, and systems.

    Question 3. Is the software industry really performing the 
necessary due diligence to make sure their products are up to par with 
respect to security or do security concerns/vulnerabilities take a back 
seat to getting the product or next version out in the market? It seems 
as if, with all the patches, that the industry does not have the 
foresight to proactively fill the holes, correct?
    Answer. In short, no, the industry does have the foresight to 
proactively fill the holes. However, a combination of factors precludes 
it from effectively doing so.
    Good Security is a TEAM effort, and the software industry is only a 
part of the team. Good security is combination of good software design, 
good system hardware and software architecture, the successful 
application of good policies and procedures to protect systems, and 
many other factors. Much of the software industry is very serious about 
proactively improving software security; it has spent millions to do 
so. But unless the user demands and adopts the upgrades, it can have 
little effect. In the case of IACS, the user is often precluded from 
adopting such upgrades, because they will destroy the basic 
functionality of the system we are trying to protect. In those cases, 
the user must find alternative means to protect that system and its 
vulnerable software. Regulation that requires the user to take measures 
to protect vulnerable software will help to drive toward better 
results.
    Competition and the marketplace is currently a significant factor; 
you are correct--the drive to get products out limits the amount of 
improvement (if any) that occurs with each new version. Requirements to 
protect key systems and to develop more secure software can both help 
the vendors overcome some of the impediments to better software and 
systems.
    The lack of comprehensive standards--vendors are reluctant to 
invest sufficient funds on security, because their work may be eclipsed 
by regulation or standards or another vendor's defacto standard--so 
they wait. Users are reluctant to improve security because they don't 
believe they will be able to recover their investment, especially if a 
different (than their approach) standard or law is adopted after they 
spend significant funding--so they wait. All of this is exacerbated by 
a lack of well-accepted evidence that we are facing a real problem. So 
while there have been significant improvements, they have not been fast 
enough or far reaching enough to preclude a major event within our 
critical infrastructure. Carefully developed requirements that demand 
action can help to break the waiting game, and get the involved 
stakeholders working together to achieve more meaningful results 
sooner.
    There is no ``simple'' silver bullet solution that can be ``plugged 
into'' each important system to protect it. Each system or application 
typically requires an engineered solution. Each system is different, 
and because of the limitations on the ability of legacy equipment to 
use new or upgraded software, alternative solutions must often be 
developed. Solutions can be developed, and there is specialty software 
and equipment designed to protect inherently weak or vulnerable 
systems. But it must be evaluated and configured for the system in 
which it is applied.
    Unfortunately, patching security holes will be with us for the 
foreseeable future, particularly for commercial-off-the-shelf (COTS) 
software, including operating system software. Software that 
incorporates cybersecurity best practices will certainly help. However, 
there is a large body of older legacy software in production use that 
is vulnerable to malicious code. A recent report regarding several 
hundred security breaches spanning several years found that the vast 
majority of successful data breaches were attributed to systems not 
being managed in accordance with best security practices. A lack of 
patching does not cause breaches; the core issue is a lack of 
management engagement and an ignorance of well-known security 
practices.
    In general purpose IT systems, automated patching can be a solution 
to address ``buggy'' software. IACS incorporating general purpose 
operating systems are often modified by the IACS supplier. 
Consequently, automated patching can cause problems not typically 
encountered in general purpose systems. IACS typically have minimal 
computing resources. Applying traditional security approaches, such as 
Anti-virus software, can be too resource-intensive. This might result 
in unintended IACS shutdowns. Consequently, more work is needed to 
identify appropriate security practices for IACS. Until IACS security 
matures, vulnerable components must be isolated from attack vectors 
that would not usually apply in a general computing system environment.
    Many IACS cyber vulnerabilities stem from issues besides ``buggy'' 
software. The infamous ``Aurora'' demonstration by the Idaho National 
Laboratory used dial-up modems to physically destroy hardware, in this 
case, a diesel generator. Inadequate security testing can miss cyber 
vulnerabilities and inadequate security planning can be the cause of 
cyber incidents. The interactions of various types of software can 
cause unanticipated cyber problems. As examples, interactions between 
normally-functioning software caused a fossil Tower plant to overstress 
a turbine,\2\ and a nuclear power plant to automatically shutdown.\3\ 
In both instances, no IT security policies were violated, but it is 
clear that such policies should have addressed the scenarios leading to 
the events. There is a critical need for effective IACS security 
policies and robust security testing procedures that address the unique 
characteristics of these types of systems and their operating 
environments.
---------------------------------------------------------------------------
    \2\ ``Runkle and Labbe--``Optimizing Turbine Life Cycle Usage and 
Maximizing Ramp Rate,'' 16th Annual Joint ISA POWID/EPRI Controls and 
Instrumentation Conference, 49th Annual ISA Power Industry (POWID) 
Conference, Volume 49/ISA Volume 466, 4-9 June 2006, San Jose, 
California.
    \3\ Operating Experience Report OE26424--Isolation of Condensate 
Demineralizer System and Subsequent Plant Trip While Testing Software 
Change (Hatch), 3-11-08.

    Question 4. With the countless web applications, add-ons, software, 
shareware, how can we imbed a ``best practices'' or set of 
cybersecurity standards that better protect users and their computers 
from vulnerabilities or cyberattacks? A criminal can target a seemingly 
innocuous web browser add-on application to gain access to one's 
computer or a network, right?
    Answer. You are correct in that a criminal can target a seemingly 
innocuous web browser add-on application to gain access to one's 
computer or a network. Consequently, multiple organizations are 
attempting to establish cybersecurity standards and guidelines. Good 
standards that are kept up to date are very important. However 
standards are only one component in achieving adequate cybersecurity. 
The complete picture includes robust and meaningful standards; 
effective implementation of the standards; improvements in software and 
equipment security; developing new types of secure equipment; and an 
effective information sharing process for addressing new attack vectors 
and threats commensurate with the risks they present.
    Harmonization to a single set of standards and guidelines would 
help. However, user awareness is often lacking, and existing standards 
and guidelines aren't always followed. As an example, a security 
consultant left compromised thumb drives in a parking lot to 
demonstrate via social engineering that people would pick up the drives 
and insert them into their corporate workstations even though such 
actions were against their company's IT policies. Sadly, they did as 
expected! Senior management must create a culture of security among 
employees, while addressing cultural barriers between IT and other 
organizations. To secure a modern IACS, there must be a coordinated 
effort between IT security, networking and telecom organizations, and 
the control systems personnel. Management must provide an adequate 
governance structure that includes appropriate oversight and adequate 
resources for ensuring security. Unfortunately, such a coordinated 
approach to security is not the norm.
    IACS security must be approached from an engineering perspective, 
founded on the goal of improving system safety, performance, 
reliability, and availability in the face of cyber-related threats. The 
fundamental objective is to protect the integrity of the process, and 
security is an element of that. The IACS community should develop an 
adequate risk assessment methodology, an acceptable vulnerability 
assessment methodology, and measures of acceptable levels of security 
that are based on the goals of system safety, performance reliability, 
and availability.
    To be sure, there currently is a lack of information sharing 
regarding IACS cybersecurity events. For IACS, the U.S. Computer 
Emergency Response Team (CERT) and industry Information Sharing and 
Analysis Centers (ISACs) do not work well. It is unlikely that the 
proposed DHS ICS-CERT will either. Government should fund, collaborate 
with, but NOT manage, a Cyber Incident Response Team (CIRT) for Control 
Systems. This can overcome private industry's concerns about 
confidential information being made public. It could ensure that vetted 
experts will be available as a resource for incident handling and 
mitigation, and that private industry will not be punished for 
disclosing cyber incidents. An example is MITRE's Aviation Safety 
Information Analysis and Sharing (ASIAS) System used by the Federal 
Aviation Administration (FAA) to promote open exchange of safety 
information. I have information related to more than 125 IACS cyber 
incidents. One of the major conclusions of the 9/11 Commission was the 
lack of ``connecting the dots'' regarding terrorism threats. Similarly, 
there has been no attempt to ``connect the dots'' with IACS cyber 
incidents. Such an effort could pay multiple dividends in helping to 
develop more appropriate policies and architectures, better procurement 
guidelines, and more buy-in of the real problems that exist.
    While a notable percent of threats and attacks originate here 
domestically, the vast majority come from overseas. The 2007 
cyberattacks on DOD, DHS, and Commerce were all initiated by unknown 
foreign entities. China is most prolific host of malicious websites. 
Russia, with the Russian Business Network (RBN), is a hot-bed of 
activity.

    Question 5. We can certainly do a lot to address the domestic 
threats as well as to protect our borders, but what can we specifically 
do across our borders to address the source of the attacks?
    Answer. It is doubtful we can separate the domestic and 
international threats. Just as the Internet is global, computer 
suppliers are also global. For example, Dell and Hewlett Packard are 
domestic brands, but are manufactured all over the world. Toshiba is a 
Japanese company that supplies North America, while the former IBM 
laptop product line was purchased by a Chinese company--Lenovo. 
Domestic suppliers obtain components and software from international 
sub-suppliers. Supply chains provide another opportunity for malicious 
activity. The same applies to IACS environments, where there is a mix 
of domestic suppliers like General Electric, Emerson, and Honeywell, 
and international suppliers like Siemens from Germany, Areva from 
France, and ABB from Switzerland. At least one major American IACS 
supplier has a SCADA software development center in China.
    There are a number of steps we can take to improve security, 
especially where critical infrastructure is involved. We can filter and 
limit communications, and provide network segmentation and isolation of 
our more important systems. We can monitor communications to identify 
traffic patterns and share information on unexpected and problematic 
network activities.
    Properly identifying the sources of attacks or exploits assumes 
that adequate forensic capabilities exist. In several recent cyber 
incidents, even the newest control systems did not have logging 
capability adequate to identify the causal factors of the incidents. 
Current IT forensic approaches may actually harm IACS or inhibit 
critical restart capabilities. Consequently, there is a critical need 
to develop an appropriate IACS forensics methodology and related set of 
protocols.
    As you may know, Chairman Rockefeller and I created the E-rate 
program, which provides discounted telecommunications services to 
schools and libraries, as an amendment to the Telecommunications Act of 
1996. The E-rate program has been instrumental in making Internet 
access available to schools and libraries--before the program, only 14 
percent of schools had Internet access. Today, nearly 100 percent of 
America's schools, 94 percent of individual classrooms, and 98 percent 
of public libraries are now wired. Internet access and information 
technology have truly enhanced the learning environment and process as 
well as better prepared our students for entering the digital global 
economy. With E-rate, students are learning how to use the Internet as 
a research tool, for collaborating on assignments and projects with 
individuals in other geographical locations, and downloading homework--
the list goes on.

    Question 6. However, various studies and surveys indicate that 
students have a false sense of security when using the Internet--
they're often too lax in their security with usernames/passwords and 
they more readily provide personal information online. Are we doing 
enough for K-12 students in teaching them about cybersecurity? It seems 
we could do a lot more to infuse cybersecurity education into school's 
curriculum, do you agree?
    Answer. Yes, I agree we need to infuse more cybersecurity into the 
K-12 education process. Computer access is becoming ubiquitous and 
social networking sites are breaking down previous privacy barriers. 
There should be a better awareness among K-12 students regarding 
security and the need to take security seriously. This is especially 
important given the high level of social activity prevalent amongst 
youth, who are early adopters of potentially risky online technology. 
Our young should be educated that security risks exist when visiting 
websites, downloading files from untrusted sites, chat and instant 
messaging, and file sharing. They also need to understand cyber threats 
are more than just a threat to computers, but can also lead to personal 
threats like cyber bullying and cyber stalkers. Cybersecurity awareness 
education should be integrated into curricula in the same way that 
``looking both ways before crossing the street'' has been.
    There is also a need to reach out to young people attending college 
and within the work force. Almost all new technologies have digital 
communication capability, which means there are often cyber 
vulnerabilities. Cybersecurity is interdisciplinary in nature, and 
should be taught as such. Currently, IT security certifications and 
audit metrics exist for the information security community. However, 
there are no certifications for IACS security or audit metrics unique 
adapted for IACS. We need to ``train the trainers'' regarding IACS 
security and develop the appropriate curricula. This is a pressing need 
when it is seen that there are at best a few hundred people in the 
entire world who are security subject matter experts specifically 
relating to IACS.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Olympia J. Snowe to 
                         Dr. Edward G. Amoroso
    Question 1. The Internet has revolutionized some many different 
areas of society and the economy. The innovation, adoption, and sheer 
size of the Internet are simply unparalleled. The Internet currently 
comprises of more than 1.5 billion users, 570 million computers, and 
174 million websites. However, we will eventually enter a new iteration 
of the Internet with the migration from IPv4, a 32-bit addressing 
space, to IPv6, a 128-bit addressing, which provides 5 x 10 \28\ IP 
addresses for every individual on earth (or 6.5 x 10 \23\ addresses for 
every square meter of the earth's surface). In addition, Internet 
Corporation for Assigned Names and Numbers (ICANN) plans to allow the 
expansion of generic top level domains from the current 21 domains to 
eventually hundreds if not thousands. Both of these efforts as well as 
others present amazing opportunity and potential for the evolution of 
the Internet but also present significant challenges with cyber 
security.
    What will this eventual expansion of IP addresses and domains mean 
with respect to cyber security and threats? With domain name system 
techniques such as fast fluxing, pharming, DNS cache poisoning, being 
used by botnets, it could present an even greater challenge because 
there is even a greater pool of resources available, right?
    Answer. You highlight two important changes in the Internet 
ecosystem. From a security perspective, the key issue is that 
``change'' always creates opportunities for vulnerabilities to be 
exploited. The industry's transformation to IPv6 is an example of a 
particularly significant change, and, consequently, a significant 
opportunity for exploitation, particularly in light of the 
proliferation of new and increasingly sophisticated threats. AT&T and 
other network service providers continuously evaluate IPv6 deployment, 
and all service providers have the potential to play a greater role in 
addressing such vulnerabilities by building robust, smart-network 
system capabilities. Government policy should support such private 
sector efforts.
    With respect to domain name expansion, AT&T has filed comments with 
ICANN demonstrating that new generic top level domain names should not 
be introduced until a whole range of Internet ecosystem issues, 
including Internet security and stability, are adequately studied and 
understood.

    Question 2. The first sentence of Cisco's 2008 Annual Security 
Report states ``Compared to previous years, online criminals are 
becoming even more sophisticated and effective, employing a greater 
number of relatively smaller, more targeted campaigns to gain access to 
sensitive data.'' Another report by IBM's Internet Security Systems X-
Force Team highlighted that the number of new malicious Websites in the 
fourth quarter of 2008 alone surpassed the number seen in the entirety 
of 2007 by 50 percent and that new categories of threats affecting 
clients are on the rise, specifically in the areas of malicious 
documents, multimedia applications, and potentially Java applications 
which are easy to host on the Web.
    It seems that tackling the issue of cyber threats is a little bit 
like ``whack-a-mole,'' in that you discover and fix one vulnerability 
but then due to the sophistication and resourcefulness of the 
criminals, ten more cyberattacks pop-up. So how can we realistically 
deal with this, which seems to be a perpetually increasing problem?
    Answer. Your analogy is apt, and we must not allow the game to get 
out of control. The most realistic way to deal with threats of this 
nature is to take a holistic approach, assuring that throughout the 
ecosystem, we have developed sophisticated and flexible cyber security 
capabilities. To this end, government policies should encourage private 
sector investments in innovative security capabilities. As a network 
provider, cyber security is an AT&T priority; we seek to assure that 
the information, applications, and services our customers want are 
secure, accurate, reliable, and available wherever and whenever they 
are desired through the provisioning of a highly-intelligent network 
capable of identifying and mitigating cyberattacks. Our intelligent 
network capabilities are an important component of a proactive approach 
to cybersecurity which includes prevention and rapid mitigation of 
threats as they emerge.

    Question 3. The IBM report stated that of ``all the [cyber] 
vulnerabilities disclosed in 2008, only 47 percent can be corrected 
through vendor patches.'' Last April, the New York Times reported 
thousands of corporate executives were targets of a phishing attack 
that attempted to install malware on the recipients' computers. 
Security experts found that less than 40 percent of antivirus programs 
were able to identify and stop the attack. Cisco's report mentioned 
that criminals are getting access to computers and networks by 
exploiting weaknesses in technologies, software, and systems.
    Is the software industry really performing the necessary due 
diligence to make sure their products are up to par with respect to 
security or do security concerns/vulnerabilities take a back seat to 
getting the product or next version out in the market? It seems as if, 
with all the patches, that the industry does not have the foresight to 
proactively fill the holes, correct?
    Answer. Cyber security should be viewed as an ecosystem and not be 
viewed as the exclusive domain of either software application providers 
or network providers. Effective cyber security solutions will rely upon 
smart networks working hand in hand with software based solutions. As 
noted above, the government should seek to encourage private sector 
investment in both innovative network security and edge application 
security technologies. From my perspective, both application and 
network providers are committed to addressing these challenges, but 
vulnerabilities remain and need to be addressed, particularly through 
the increasing availability of application software that allows end-
users within an enterprise to ``turn off'' unneeded features.

    Question 4. With the countless web applications, add-ons, software, 
shareware, how can we imbed a ``best practices'' or set of cyber 
security standards that better protect users and their computers from 
vulnerabilities or cyberattacks? A criminal can target a seemingly 
innocuous web browser add-on application to gain access to one's 
computer or a network, right?
    Answer. You have identified a significant and difficult challenge 
because, as you note, criminal can target an add-on application to gain 
control. I believe that the key to embedding best practices is in 
virtualization and greater centralization of cyber security 
capabilities. This represents the best opportunity to respond to real-
time attacks and remove bad decisionmaking from end-users. In this 
respect, network service providers can help address these issues by 
offering comprehensive network based managed security services across 
their customer base. AT&T is investing heavily in making our core 
network the first line of defense in cyber security for our entire 
customer base. We see it as our responsibility to educate our customers 
about the need for professionally-managed cyber security in order to 
protect them from exploitation.
    From a software perspective, dealing with complexity is a 
significant challenge, so complexity must be reduced so that secure 
software can be more easily written to include operating system design 
techniques, such as the inclusion of a policy enforcement kernel, to 
guard against a range of attacks.

    Question 5. While a notable percent of threats and attacks 
originate here domestically, the vast majority come from overseas. The 
2007 cyberattacks on DoD, DHS, and Commerce were all initiated by 
unknown foreign entities. We can certainly do a lot to address the 
domestic threats as well as to protect our borders, but what can we 
specifically do across our borders to address the source of the 
attacks?
    Answer. A cooperative and coordinated response by governments and 
the private sector is necessary in order to contain cyber threats. 
These threats are possible only because of the inherently anonymous 
nature of the global digital infrastructure as it has evolved, and 
because illicit behaviors may find a safe haven, for a variety of 
reasons, in places throughout the world. For this reason, a 
constructive trans-national public and private sector dialogue on cyber 
security must ensue, so that globally coordinated, cooperative 
solutions can emerge. This dialogue can build on the cooperation and 
discussions that are already taking place with strong private sector 
involvement in order to respond to global cyber threats.

    Question 6. As you may know, Chairman Rockefeller and I created the 
E-rate program, which provides discounted telecommunications services 
to schools and libraries, as an amendment to the Telecommunications Act 
of 1996. The E-rate program has been instrumental in making Internet 
access available to schools and libraries--before the program, only 14 
percent of schools had Internet access. Today, nearly 100 percent of 
America's schools, 94 percent of individual classrooms, and 98 percent 
of public libraries are now wired. Internet access and information 
technology have truly enhanced the learning environment and process as 
well as better prepared our students for entering the digital global 
economy. With E-rate, students are learning how to use the Internet as 
a research tool, for collaborating on assignments and projects with 
individuals in other geographical locations, and downloading homework--
the list goes on.
    However, various studies and surveys indicate that students have a 
false sense of security when using the Internet--they're often too lax 
in their security with usernames/passwords and they more readily 
provide personal information online. Are we doing enough for K-12 
students in teaching them about cyber security? It seems we could do a 
lot more to infuse cyber security education into school's curriculum, 
do you agree?
    Answer. Yes. With the widespread use of computers at the earliest 
ages today, it makes sense to start educating our children about 
digital literacy--both ``online safety'' as well as ``cybersecurity 
awareness.'' Online safety means focusing on children's use of the 
Internet in a way that protects their privacy, security and wellbeing, 
and respect for others. Cybersecurity education is also essential and 
involves teaching kids about the basics of cybersecurity and importance 
of understanding the harm that viruses and other threats post to them 
personally and to society at large.
    AT&T, we are teaching children to be alert and aware online and 
providing services that help them create a safer online experience. For 
example, AT&T's parental controls allow parents, at no cost, to control 
the content to which their children may obtain access to the Internet. 
In the context of the AT&T Hometown Tours program, we have visited more 
than 100 communities nationwide and taught children key Internet safety 
skills, such as protecting computers against viruses, hackers and spam, 
as well as reviewing age-appropriate content, and the potential dangers 
associated with social networking. We also have implemented an online 
safety program with our partner iKeepSafe, and the DARE officers, 
reaching children in grades K-5 in thousands of communities across the 
country.
    These online safety initiatives help keep families aware of the 
threats around them, but they supplement, and are not a substitute for, 
holistic network-based and software-based cyber security practices.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Olympia J. Snowe to 
                         Dr. Eugene H. Spafford
    Question 1. What will this eventual expansion of IP addresses and 
domains mean with respect to cyber security and threats? With domain 
name system techniques such as fast fluxing, pharming, DNS cache 
poisoning, being used by botnets, it could present an even greater 
challenge because there is even a greater pool of resources available, 
right?
    Answer. I have spoken with several of my colleagues about this 
question, and the best answer we can provide is ``We do not know for 
certain.'' The vast majority of our problems are traceable to two major 
shortcomings: poor security of host endpoints, and a significant 
problem in traceback and attribution of misbehavior. Neither of these 
problems is likely to see any change resulting from more domains or a 
switch to IPv6.
    If we have more addresses with a switch to IPv6 (the only likely 
way to expand addresses) we will have a situation where it is more 
difficult--and highly impractical--for attackers to scan networks to 
find unadvertised but vulnerable hosts. However, it will also be more 
difficult for defenders to scan networks to look for unauthorized 
connections.
    The biggest issue with IPv6 is that very little of the current 
security infrastructure (firewalls, intrusion detection, etc) is 
designed to work with IPv6. Thus, a switch won't result in any 
significant benefits directly, but could introduce new problems if the 
infrastructure isn't upgraded simultaneously.
    Having new domains and a larger IP space will both make it more 
difficult to ``blacklist'' addresses in a reliable manner. The expanded 
IP and namespace could make it easier for bad actors to hide or 
relocate their operations, but current resources seem sufficient to 
hide most of their activities, so it is difficult to say if a switch 
would result in any significant change.

    Question 2. It seems that tackling the issue of cyber threats is a 
little bit like ``whack-a-mole,'' in that you discover and fix one 
vulnerability but then due to the sophistication and resourcefulness of 
the criminals, ten more cyberattacks pop-up. So how can we 
realistically deal with this, which seems to be a perpetually 
increasing problem?
    Answer. I addressed this, in part, in my written testimony. The 
solution is to pay more attention to the development of the systems 
that are deployed. In large part, this means that we need to spend more 
on development of hardened, minimal, systems. We must recognize that we 
need to invest in development of systems that are better suited to use 
in high-risk environments, rather than general-purpose systems designed 
without strong practices.
    We also need to invest in law enforcement and follow-up, to 
increase the risk for people who abuse systems. This works in other 
arenas, but is largely missing in cyber.
    A key issue is one of economics and false value. Right now, most 
users of computing technology (the Federal Government included), buy 
and deploy systems without really valuing the potential losses if the 
systems are compromised. As a result, the systems are purchased, 
configured, and operated as cheaply as possible, without due 
consideration given to the risk potential. (Analogy: constructing 
military facilities out of cardboard because it is cheap, without 
thinking about the potential risks and needs over the longer term.)
    We can do better, but it requires both discipline and funding.

    Question 3. Is the software industry really performing the 
necessary due diligence to make sure their products are up to par with 
respect to security or do security concerns/vulnerabilities take a back 
seat to getting the product or next version out in the market? It seems 
as if, with all the patches, that the industry does not have the 
foresight to proactively fill the holes, correct?
    Answer. Industry could do better, but the incentives aren't there. 
To perform more tests or develop better tools would not only take time, 
but cost money. Right now, there is no real business reason for 
companies to expend extra resources to harden systems because there is 
little evidence that customers are willing to pay the extra cost. 
Customers large and small continue to buy systems that have been shown 
to have a poor record of safety, and make choices based on purchase 
price rather than on added security features.
    This is related to my answer to Question 2--we need to create an 
environment where it is possible to have multiple systems tailored for 
specific applications rather than trying to adapt the same general-
purpose systems that are used in people's homes for use in business and 
government. With a variety of systems, those that require more testing 
and security features could have the extra cost included--although 
other factors would need to be brought to bear to ensure that the more 
secure systems were purchased and deployed in environments where needed 
rather than the less-expensive (and less well-designed) systems. This 
goes to creating an environment where management is held responsible 
for failures, and there are recognized standards and metrics for good 
security.

    Question 4. With the countless web applications, add-ons, software, 
shareware, how can we imbed a ``best practices'' or set of cyber 
security standards that better protect users and their computers from 
vulnerabilities or cyberattacks? A criminal can target a seemingly 
innocuous web browser add-on application to gain access to one's 
computer or a network, right?
    There are some technical approaches currently under development 
that could help with these issues. However, as noted above, unless the 
extra cost is minimal or otherwise amortized, they may not widely 
adopted.
    As suggested by your answer, some better standards would definitely 
help. So would better enforcement of existing laws and rules. However, 
I am skeptical that any new regulations would be especially helpful 
until current laws and regulations are enforced on a more regular and 
consistent basis.

    Question 5. We can certainly do a lot to address the domestic 
threats as well as to protect our borders, but what can we specifically 
do across our borders to address the source of the attacks?
    Answer. The answer to this comes in parts.
    First, there are criminal activities originating in friendly or 
neutral countries. We can do more by ensuring that we have reciprocal 
cyber crime treaties in place. The law enforcement officials in those 
countries must have the training and resources to assist in 
investigation of offenses.
    Second, there are criminal activities originating in unfriendly 
countries. In these cases, we have not obtained significant assistance 
in law enforcement investigations. In some cases, the activities are 
sanctioned or even supported by those governments. Where there is 
little cooperation, other leverage is necessary such as financial or 
political sanctions. Techniques currently used to address international 
criminal activities involving drugs, counterfeiting, and other criminal 
activity with these countries could also be employed in cyber, although 
I am uncertain if enabling legislation would be required.
    In both cases we need to raise the priority of enforcement and 
provide the necessary resources to match that prioritization.

    Question 6. However, various studies and surveys indicate that 
students have a false sense of security when using the Internet--
they're often too lax in their security with usernames/passwords and 
they more readily provide personal information online. Are we doing 
enough for K-12 students in teaching them about cyber security? It 
seems we could do a lot more to infuse cyber security education into 
school's curriculum, do you agree?
    Answer. Yes, I agree. I will note that we also don't do a very good 
job of teaching basic computer science in K-12.
    We used to have an effective and far-reaching program through my 
center (CERIAS) for K-12 education but were forced to discontinue it 
because there were no sources of support. We also had to discontinue 
our community education programs for the same reason.

                                  <all>

</pre></body></html>
